   March 6, 2002




Financial
Management
Controls Over Vendor Payments
Made for the Army and Defense
Agencies Using the Computerized
Accounts Payable System
(D-2002-056)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAPS                  Computerized Accounts Payable System
CAPS(W)               Computerized Accounts Payable System for Windows
CCR                   Central Contractor Registry
CEFT                  Corporate Electronic Funds Transfer
C.F.R.                Code of Federal Regulations
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
DNO                   Directorate of Network Operations
DPPS                  Defense Procurement Payment System
EDA                   Electronic Document Access
EDM                   Electronic Document Management
EFT                   Electronic Funds Transfer
FAR                   Federal Acquisition Regulation
GAO                   General Accounting Office
ODS                   Operational Data Store
OMB                   Office of Management and Budget
PPA                   Prompt Payment Act
SPS                   Standard Procurement System
USPFO                 United States Property and Fiscal Office
                       Office of the Inspector General, DoD
Report No. D-2002-056                                                   March 6, 2002
  (Project No. D2000FI-0248.001)

        Controls Over Vendor Payments Made for the Army and
               Defense Agencies Using the Computerized
                       Accounts Payable System

                                   Executive Summary

Introduction. Serious internal control weaknesses have been reported over the years in
DoD payment processes and systems. As a result of those weaknesses, the risk of
fraud and error is increased. Errors can include duplicate payments, payments in the
wrong amount, or charges to the wrong account.

The Defense Finance and Accounting Service (DFAS) uses two versions of the
Computerized Accounts Payable System (CAPS) to make vendor payments for the
Army and several Defense agencies. During FY 2000, DFAS made about
902,000 vendor payments, valued at $13.7 billion, using CAPS. On April 1, 2001, the
Director, DFAS, capitalized all commercial payment resources under the Director,
Commercial Pay Services. This is the second in a series of audit reports addressing the
controls over CAPS.

Objectives. Our objectives were to evaluate the controls associated with making
payments using CAPS and progress in transitioning to the Defense Procurement
Payment System. This report focuses on the controls associated with making vendor
payments. We also evaluated the effectiveness of the management control program as
it related to making vendor payments using CAPS.

Results. DFAS field sites did not implement effective and consistent internal controls
to detect and correct improperly supported or erroneous payments. As a result, DFAS
made at least $13.2 million in duplicate payments, an estimated 30,584 payments in the
wrong amounts, and other vendor payments that did not comply with 5 Code of Federal
Regulations Part 1315 (finding A).

Access to the two versions of CAPS was not adequately controlled and monitored.
System access controls did not properly segregate duties, access to payment functions
was not consistently assigned to payment technicians at DFAS field sites, and remote
users were given inappropriate access to CAPS for Windows. As a result, the system
was susceptible to improper and unauthorized use and individual users could
circumvent the requirements of 5 Code of Federal Regulations Part 1315 (finding B).

DFAS field sites frequently made erroneous payments and other payments that were not
fully supported by proper documents. We estimate that 181,406 of the 236,940 vendor
payments made by DFAS field sites for the Army and Defense agencies from May 1
through July 31, 2000, lacked at least one element of support required by 5 Code of
Federal Regulations Part 1315. We also estimate that 30,584 payments were in the
wrong amounts. As a result, DoD managers assumed an increased risk that payments
were not being made in compliance with the Prompt Payment Act. In addition,
resources were diverted from their intended use due to efforts to correct duplicate
payments and other erroneous payments (finding C). These deficiencies constitute a
material control weakness. See Appendix A for details on the management control
program as it relates to controls over vendor payments.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller), in coordination with DFAS, develop and incorporate into DoD
Regulation 7000.14-R, volume 10, standard business rules for making vendor payments
that incorporate the requirements of 5 Code of Federal Regulations Part 1315, the Debt
Collection Improvement Act of 1996, and recent changes to the Federal Acquisition
Regulation. We recommend that DFAS develop effective programs for identifying and
correcting problems in making vendor payments. We also recommend that DFAS
establish standard system access profiles, make needed system changes, and develop
plans to use other than the disk operating system version of CAPS if system access
controls can not be improved and to overcome obstacles that prevent the automated
interfacing of data into CAPS for Windows.

We recommend that the Army, in coordination with DFAS, train personnel at
designated billing offices and Army receiving activities on the standards for properly
date-stamping documents and receiving and accepting goods and services. We
recommend that DFAS improve the accuracy of payments by directing field sites to
follow the requirements for computing payment due dates. We also recommend that
the Army direct contracting offices to improve the use of delivery orders and
comprehensiveness of contracting documents.

Management Comments. The Acting Deputy Chief Financial Officer stated that DoD
Regulation 7000.14-R was being changed to incorporate 5 Code of Federal Regulations
Part 1315 and the Debt Collection Improvement Act of 1996. However, the
development of standard business rules for making vendor payments and a completion
date for issuance of the revised guidance was not addressed. In commenting for DFAS,
the Director, Commercial Pay Services, partially agreed with most recommendations,
but did not did not agree to perform frequent post-payment reviews; remove remote
system access to update information in CAPS for Windows; discontinue using Standard
Form 1034 as an invoice, receiving report, and obligation document; and establish
reasonableness standards for receipt and acceptance dates on receiving reports. The
Deputy Assistant Secretary of the Army (Financial Operations) agreed to issue detailed
guidance on processing receiving reports. The Assistant Secretary of the Army
(Acquisition, Technology, and Logistics) did not provide comments on the draft report.
See the Finding section of the report for a discussion of management comments and the
Management Comments section for a complete text of the comments.

Audit Response. The Under Secretary of Defense (Comptroller) comments were
partially responsive. However, further comments are needed to address the need to
develop and incorporate standard business rules for making all types of vendor
payments in DoD Regulation 7000.14-R, volume 10. DFAS comments were generally
responsive. However, additional actions need to be taken to improve the internal
control environment when making vendor payments using CAPS. We request that
DFAS reconsider its position regarding the frequency of post-payment voucher reviews,
removing remote system access to update information in CAPS for Windows, limiting
the use of Standard Form 1034, and working with the Army to establish reasonableness
standards for receipt and acceptance dates on receiving reports. We request that the
Under Secretary of Defense (Comptroller), the Assistant Secretary of the Army
(Acquisition, Technology, and Logistics), and DFAS provide comments on the final
report by May 6, 2002.
                                            ii
Table of Contents

Executive Summary                                               i


Introduction
     Background                                                 1
     Objectives                                                 2

Findings
     A. Standardizing the Processing of Vendor Payments         3
     B. System Access and Other Control Issues                 17
     C. Document Requirements for Making Vendor Payments       28

Appendixes
     A. Audit Process
          Scope                                                41
          Methodology                                          41
          Management Control Program Review                    42
     B. Prior Coverage                                         44
     C. Standard Office Structure for Making Vendor Payments   45
     D. Guidance on Supporting Documentation                   47
     E. Statistical Sampling Methodology                       52
     F. Erroneous and Unsupported Payments                     55
     G. Report Distribution                                    62

Management Comments
     Under Secretary of Defense (Comptroller)                  65
     Department of the Army                                    66
     Defense Finance and Accounting Service                    67
Background
    Vendor Payments. As a general rule, payments must be supported by an
    obligating document (contract, purchase order, or other document obligating
    DoD to pay for goods or services), an invoice, and a receiving report. The
    current vendor payment process depends on the receipt and processing of
    hard-copy documents. Technicians review supporting documents for accuracy
    and completeness before entering them into the Computerized Accounts Payable
    System (CAPS). Certifying officers should compare the payment vouchers to
    the supporting invoices, receiving reports, and contract or obligation documents
    to ensure the accuracy of the payment information before approving the
    vouchers for payment. Following certification, a payment voucher is created
    and the payment information is loaded into the disbursing system. The
    disbursing system uses the payment transactions generated by CAPS to make
    disbursements.

    Automated Systems for Making Vendor Payments. The Defense Finance and
    Accounting Service (DFAS) uses 15 different systems to make vendor
    payments. Two versions of CAPS are used to make vendor payments for the
    Army and Defense agencies. Eight DFAS field sites used CAPS for Windows
    (CAPS[W]) to make vendor payments. The disk operating system version of
    CAPS (CAPS Clipper) was used by DFAS Europe, Kaiserslatern, Germany;
    DFAS Rock Island, Rock Island, Illinois; DFAS St. Louis, St. Louis, Missouri;
    the 54 United States Property and Fiscal Offices (USPFOs); and several other
    DoD organizations. The two versions of CAPS receive data primarily from
    manual sources. CAPS uses both automated and manual controls to maintain
    accurate and complete data. DFAS initially planned to replace CAPS with the
    Defense Procurement Payment System (DPPS) in 2001. As of December 2001,
    the plan was to begin transitioning from CAPS to DPPS in October 2003.

    Realignment of Vendor Payment Operations. On March 29, 2001, the
    Director, DFAS, announced the capitalization of all commercial payment
    resources under the commercial pay business line. Effective April 1, 2001, the
    Director, Commercial Pay Services, became responsible for the commercial pay
    business line. This business line is comprised of two product lines (contract pay
    and vendor pay). The vendor pay product line encompasses entitlement
    determination for contracts not administered by the Defense Contract
    Management Agency, transportation payments, and miscellaneous payments to
    businesses and individuals. Before April 1, 2001, DFAS Indianapolis was
    primarily responsible for overseeing operations at organizations that made
    vendor payments for Army customers using CAPS.

    Related Audit Reports. In General Accounting Office (GAO) Report
    No. GAO/AIMD-98-274, “Improvements Needed in Air Force Vendor Payment
    Systems and Controls,” September 28, 1998, GAO recommended that the
    Director, DFAS, strengthen payment processing controls by establishing
    separate organizational responsibilities for entering payment data and revising
    vendor payment access levels to correspond with the new structure. In
    Inspector General, DoD, Report No. D-2000-139, “Controls Over the
    Integrated Accounts Payable System,” June 5, 2000, we recommended
    additional improvements in the processing of vendor payments using the
                                        1
     Integrated Accounts Payable System. We also reported that significant actions
     had been taken to establish separate organizational responsibilities for entering
     payment data and revising vendor payment access levels to correspond with the
     new structure. In Inspector General, DoD, Report No. D-2002-008, “Controls
     Over the Computerized Accounts Payable System at Defense Finance and
     Accounting Service Kansas City,” October 19, 2001, we concluded that the
     structure and business practices of the vendor payment office at DFAS Kansas
     City did not provide efficient and effective controls over vendor payments. In
     addition, access over CAPS(W) needed improvement and vendor payments were
     often not properly supported.

     Basic Guidance. The principal guidance used for making payment to vendors
     is the Prompt Payment Act (PPA), as implemented by the Office of
     Management and Budget (OMB) in 5 Code of Federal Regulations (C.F.R.)
     Part 1315, “Prompt Payment; Final Rule,” September 29, 1999. 5 C.F.R.
     Part 1315 identifies documentation requirements for supporting vendor
     payments and rules for computing payment due dates. The PPA and supporting
     documentation requirements are further described in the Federal Acquisition
     Regulation (FAR) subpart 32.9, “Prompt Payment;” Defense Federal
     Acquisition Regulation Supplement (DFARS) subpart 232.9, “Prompt
     Payment;” and DoD Regulation 7000.14-R, volume 10, “Contract Payment
     Policy and Procedures,” November 1999. Although 5 C.F.R. Part 1315
     amended the requirements of the PPA when it was issued on September 29,
     1999, FAR subpart 32.9 was not updated until December 18, 2001. DoD
     Regulation 7000.14-R, volume 10, has not yet been updated to comply with
     5 C.F.R. Part 1315 requirements.

     DoD Regulation 7000.14-R, volume 5, “Disbursing Policy and Procedures,”
     chapter 33, “Accountable Officials and Certifying Officers,” August 1999,
     provides guidance for appointing certifying officers, outlines the responsibilities
     of certifying officers, and requires post-payment reviews of certified payments.
     The Debt Collection Improvement Act of 1996 requires payments by Electronic
     Funds Transfer (EFT). 31 C.F.R. Part 208, “Management of Federal Agency
     Disbursements; Final Rule,” Section 208.4, “Waivers,” September 25, 1998,
     allows specific waivers to the EFT requirements.

Objectives
     Our objectives were to evaluate the controls associated with making payments
     using the CAPS and progress in transitioning to DPPS. This report focuses on
     the controls associated with making vendor payments. We also evaluated the
     effectiveness of the management control program as it related to making vendor
     payments using CAPS. See Appendix A for a discussion of the audit scope and
     methodology and our review of the management control program. See
     Appendix B for a summary of prior coverage.




                                          2
           A. Standardizing the Processing of
              Vendor Payments
           DFAS field sites did not implement effective and consistent internal
           controls to make properly supported vendor payments and detect and
           correct improperly supported or erroneous payments. Problems
           continued to exist because:

                  •   DFAS did not develop a standard vendor payment office
                      structure at field sites using CAPS,

                  •   standard business rules were not developed to control and
                      review supporting documents and payment processing, and

                  •   efforts to improve the vendor payment process were not
                      consistently effective.

           As a result, DFAS made at least $13.2 million in duplicate payments, an
           estimated 30,584 payments in the wrong amounts, and other vendor
           payments that did not comply with 5 C.F.R. Part 1315.

Internal Control Environment
    GAO Report No. GAO/AIMD-00-21.3.1, “Standards for Internal Control in the
    Federal Government,” November 1, 1999, defines internal control as an integral
    component of an organization’s management. Public law and regulations are
    key considerations in developing business rules for making vendor payments.
    Business rules should ensure a strong internal control environment and
    adherence to public laws governing the processing of vendor payments.

Developing a Standard Vendor Payment Structure
    DFAS did not establish a standard office structure at field sites making vendor
    payments using CAPS. The nine DFAS field sites we visited between
    August 2000 and March 2001 had different office structures and vendor
    payment processes. The lack of a standard structure and consistent business
    rules for making vendor payments contributed to a weak internal control
    environment in which improperly supported and erroneous payments were
    made. The use of a standard vendor payment structure will also assist with
    transitioning DFAS field sites to an operating environment that uses DPPS. A
    detailed discussion of a standard office structure for making vendor payments is
    in Appendix C. Efficient and accurate processing of vendor payments requires
    a standard office structure that incorporates strong business rules. Vendor
    payment duties should be segregated to provide adequate checks and balances in
    the payment process while maintaining positive control over supporting
    documents. A standard structure also permits the development of system access
    profiles that match the duties assigned to each individual (finding B). In

                                        3
    response to Inspector General, DoD, Report No. D-2002-008, the Director,
    Commercial Pay Services, stated that the commercial pay business line would
    develop a standard organization structure for use at all vendor pay sites.
    Consequently, we did not make that recommendation in this report.

Developing Standard Business Rules
    DFAS did not develop standard business rules to achieve effective control over
    the documents supporting vendor payments and consistency in making vendor
    payments. Standard business rules should implement the requirements in the
    Debt Collection Improvement Act of 1996, 5 C.F.R. Part 1315, and the FAR.
    Once developed, the business rules should be incorporated in DoD Regulation
    7000.14-R, volume 10. Standard business rules should complement a standard
    office structure and define a business environment for screening, tracking,
    controlling, entering, prevalidating, certifying, and researching problems with
    vendor payments.

    Mailroom Operations. DFAS did not establish and enforce standard business
    rules for receiving and date-stamping all vendor payment documents.
    Mailrooms need to control the receipt of documents supporting vendor payments
    and date-stamp documents with the actual dates of receipt.

            Proper Receipt of Vendor Payment Documents. Mailrooms at the
    nine field sites were not always secure and did not receive all incoming vendor
    payment documents. For example,

           •   The mailroom at DFAS Norfolk, Norfolk, Virginia, was in an
               unsecured location. Anyone could add, alter, or remove documents
               without being detected. During our visit, DFAS Norfolk took
               actions to secure the mailroom.

           •   DFAS San Antonio, San Antonio, Texas, had circumvented the
               controls of the RightFAX server by allowing facsimile messages to
               be received outside of the RightFAX server. If used correctly, the
               RightFAX server allowed the receipt of incoming faxes outside the
               mailroom because the server established control over incoming
               documents by recording and tracking when a message was actually
               received. A DFAS Internal Review team reported on April 26,
               2001, that documents circumventing the RightFAX server were
               printed without annotating the proper receipt date.

            Instead of routing all facsimiles directly into its Electronic Document
    Management (EDM) fax server, the DFAS Directorate of Network Operations
    (DNO), Indianapolis, Indiana, received documents supporting vendor payments
    on facsimile machines located throughout the vendor payment office. This
    practice circumvented the controls established within EDM to electronically
    receive, date-stamp, index, and route vendor payment documents. The lack of
    proper control over the receipt of supporting documents contributed to DFAS
    DNO making four duplicate payments, valued at about $2.5 million, from
    May 1 through July 31, 2000. In all four instances, payments were processed
    from hard-copy documents that circumvented EDM. Documents were received
                                        4
in the vendor pay office, used to make the payments, and then faxed or scanned
into EDM. Documents were then indexed and routed to other payment teams
that processed the duplicate payments using the supporting documents in EDM.
DFAS should establish and enforce standard business rules on how supporting
documents will be received within its field sites. These business rules should
direct field sites to receive all incoming documents in the mailroom or over the
RightFAX server.

         Date-Stamping. DFAS did not establish business rules for
date-stamping incoming vendor pay documents that ensured that all incoming
documents were date-stamped with the actual date of receipt. The nine DFAS
field sites did not always date-stamp documents immediately upon receipt or
with the actual date of receipt. Six of the nine field sites changed date stamps at
a specific time each day, regardless of whether all vendor pay documents
received that day had been stamped with the actual date of receipt. For
example, the mailroom at DFAS Orlando, Orlando, Florida, changed date
stamps at noon daily. Mail received by the mailroom after noon was
date-stamped with the next business day’s date. During the visit, DFAS
Orlando changed mailroom procedures to ensure that vendor payment
documents were stamped with the actual dates of receipt. Only DFAS
St. Louis; DFAS Rock Island; and DFAS Rome, Rome, New York, had
procedures in place to ensure that the actual date of receipt was placed on
incoming vendor payment documents. These field sites changed the date stamp
to the next business day only after all vendor payment documents received
reflected the actual date of receipt. DFAS needs to implement standard business
rules that ensure that vendor payment documents, especially invoices, are
date-stamped with the proper date of receipt.

Vendor Payment Processing. DFAS did not establish standard business rules
that promoted accurate, consistent, and timely processing of vendor payments.
Standard business rules should describe how vendor payment offices should
manage documents; describe how to enter, compute, and certify payments;
ensure that payments are prevalidated; describe how to add or amend vendor
maintenance data; and resolve problems in making vendor payments.

        Document Management. DFAS had not established consistent business
rules that defined procedures on how to properly manage vendor payment
documents. Standard document management practices ensure that all documents
used to support vendor payments are consistently screened, tracked, and entered
in CAPS. Document management practices at the nine DFAS field sites varied
significantly. Although seven of the nine DFAS field sites had established a
document management section, the technicians in those sections did not
effectively or consistently screen, enter, and control documents supporting
vendor payments. Document management sections need to be established and
staffed with experienced vendor pay technicians and supervisors who are
knowledgeable of the requirements for proper supporting documents so they can
promptly return improper documents and properly enter documents into CAPS.

              Screening and Returning Documents. DFAS had not
developed or enforced standard business rules for screening and returning all
supporting documents that did not meet the requirements in 5 C.F.R. Part 1315,
the FAR, and the requirements established to support miscellaneous payments.
                                     5
Complete screening and prompt return of improper documents is essential to
process properly supported payments, prevent rework, and avoid unnecessary
interest penalties. As discussed in finding C, sample payments were frequently
not supported by proper invoices, receiving reports, and obligation documents.
Inconsistencies existed in how DFAS field sites screened documents and
returned them for correction. Some field sites routinely returned documents to
originators that did not meet established requirements. However, other field
sites often accepted documents with similar errors as proper and used them to
support payments. Individuals screening payment documents inappropriately
determined that missing or incomplete items of information on documents were
only minor administrative errors that should not delay the payments.

                       Invoices. Invoices supporting payments often did not
meet the requirements of 5 C.F.R. Part 1315, the FAR, and DoD Regulation
7000.14-R, volume 10 (see Appendix D). Invoices not meeting requirements
should be returned to the vendor for correction within 7 days of receipt at either
the DFAS field site or the billing office designated in the contract. The
practices followed by the nine DFAS field sites for returning improper invoices
varied and did not fully comply with established procedures. For example,
while DFAS Europe had procedures that required document control technicians
to screen and return improper invoices, they were not consistently followed.
Instead of returning invoices, vendor pay technicians at DFAS Norfolk changed
or added contract numbers on invoices and used the altered documents to
process payments. DFAS Rock Island and DFAS St. Louis inappropriately
returned invoices to vendors because they had not received receiving reports or
contracts. Unless the vendor payment office first verifies that the vendor did
not ship the goods or render the service, invoices that are proper for payment
should be entered and controlled in CAPS. DFAS needs to establish standard
business rules for screening invoices and enforce requirements for returning
improper invoices to vendors.

                        Receiving Reports. Vendor payment technicians at all
nine DFAS field sites did not adequately review receiving reports to determine
whether they met the requirements in 5 C.F.R. Part 1315. Receiving reports
missing required information should be immediately returned to receiving
activities for correction. Timely return and correction of receiving reports is
essential to avoid unneeded rework and unnecessary interest payments.

                       Contracts and Authorization Documents. Only four
DFAS field sites had procedures in place for returning incomplete contracts to
contracting offices for correction. Contracting information to support vendor
payments must meet 5 C.F.R. Part 1315 to properly support a payment. A
proper contract or other authorization document obligating the Government to
pay an individual or vendor should support every vendor payment. Some
contracts did not provide payment terms or an adequate description of the item
or services procured. The lack of this information caused technicians to guess
what was meant. Contracts were also missing required clauses such as the
Central Contractor Registry (CCR)/EFT clause. Authorization documents that
supported miscellaneous payments also lacked needed information. Technicians
were reluctant to return incomplete contracts to contracting offices. Business
rules should require that contracts provide the information contained at 5 C.F.R.

                                     6
Part 1315 and as specified for prompt payments in the revised FAR
subpart 32.9. Standard business rules should also be established for screening
and returning authorization documents that support miscellaneous payments.

                 Tracking Documents. DFAS did not have standard business
rules on how to track documents supporting vendor payments received at field
sites from the time of receipt until payment. Maintaining positive control over
supporting documents prevents documents from being lost. Eight of the nine
DFAS field sites had methods of tracking documents. However, none of the
field sites efficiently and effectively controlled all documents supporting vendor
payments. For example,

       •   DFAS San Antonio used bar codes and scanners that fed information
           into an access database to track the location of each contract folder.
       •   DFAS San Antonio did not have a mechanism in place to track
           invoices, receiving reports, and documents supporting miscellaneous
           payments.

       •   DFAS Europe created a database to track supporting documents and
           contract folders.

Entering information into multiple spreadsheets or a separate database created
additional workload that most field sites did not have the staff to support.
DFAS Lawton, Lawton, Oklahoma, had the most effective method of
maintaining positive control over documents supporting contract payments.
DFAS Lawton placed input technicians in the document management area and
established a standard of 3 business days for entering documents in CAPS.

DFAS should implement an efficient and effective method of tracking
supporting documents received by the field sites. The method should provide
field sites with the ability to track all supporting documentation throughout the
entire payment process without creating an unmanageable workload for the
vendor payment office.

                Data Entry. DFAS field sites did not enter payment information
into CAPS consistently, accurately, or timely. At the nine DFAS field sites, we
randomly selected invoices, receiving reports, and obligating documents from
the mailroom and traced them through the vendor payment process. The time it
took for documents to be entered into CAPS ranged from 1 to 30 days. The
lack of effective procedures for entering documents at DFAS field sites
significantly contributed to delays in making payments. For example, vendor
payment technicians at DFAS Norfolk placed invoices and receiving reports in
contract files and did not enter information into CAPS until all documents
supporting the payment were received at the field site. The need to manually
enter contract information into CAPS was also a factor that delayed the payment
process. As discussed in finding B, continuing problems prevent the interface
of Army contract data between the Standard Procurement System (SPS) and
CAPS. DFAS field sites were also prohibited from using Electronic Document



                                     7
        Access (EDA)1 to obtain contract data for entry into CAPS. DFAS Rome had
        contracting offices that provided reliable contract data in EDA; however, the
        field site was not permitted to use the data. DFAS should develop and
        implement standard business rules for entering documents needed to support
        contract and miscellaneous payments. Standard business rules for entering data
        into CAPS are necessary to process proper payments, maintain positive control
        over the payment process, and reduce rework and interest payments.

                Payment Computation. DFAS did not implement standard business
        rules for computing payments and ensuring that payments were prevalidated.
        Segregating the compute function from data entry provides an additional review
        of the data to ensure that payments are properly supported prior to certification.

                       Computing Payments. DFAS did not establish standard
        procedures for computing vendor payments. Vendor pay technicians did not
        consistently review all supporting documents, compare them to the information
        entered into CAPS, and compute payments for disbursement. Generally, the
        technicians were not very thorough in their review of payment information.
        However, at DFAS Lawton, technicians reviewed supporting documents for
        compliance with the contract, thoroughly reviewed information entered into
        CAPS for any data entry errors, and verified the vendor EFT information in the
        Corporate EFT (CEFT) database before computing the payment voucher. The
        other DFAS field sites did not follow similar procedures.

                       Prevalidation of Payments. DFAS field sites did not establish
        effective procedures for prevalidating disbursements. DoD Regulation
        7000.14-R, volume 3, chapter 11, “Unmatched Disbursements, Negative
        Unliquidated Obligations, In-Transit Disbursements, and Suspense Accounts,”
        January 2001, requires that disbursements be matched to corresponding
        obligations recorded in the official accounting records before making payments.
        DFAS San Antonio stopped prevalidating payments due to backlogs in making
        payments and staffing issues in the vendor payment area. The other DFAS field
        sites attempted to prevalidate contract payments, but not all miscellaneous
        payments. The DFAS field sites that attempted to prevalidate contract payments
        did not consistently ensure that a corresponding obligation existed in accounting
        records and had limited assurance that a duplicate payment would not be made.
        For example,

                         •    DFAS DNO paid a vendor $1.29 million on June 27, 2000,
                              for contracted services. A second payment was paid on
                              July 19, 2000, for the same amount to the same vendor. The
                              duplicate payment was not identified during the prevalidation
                              process because funds were not reserved in the accounting
                              system when the payment was prevalidated. DFAS DNO
                              subsequently recovered the second payment.

1
 EDA is an Internet based system designed to replace the paper version of contract documents with an
electronic version.




                                                   8
               •   DFAS Europe made payments after attempting to prevalidate
                   the payment at least five times, even if the prevalidation
                   report generated by the Vendor Payment Prevalidation
                   Program showed that funds were not available to cover the
                   payment. While four of the payment teams at DFAS Europe
                   used reports generated by the Vendor Payment Prevalidation
                   Program, three other teams manually prevalidated payments
                   by viewing information in the accounting system.

                The Vendor Payment Prevalidation Program used by DFAS field
sites to prevalidate disbursements was not effective in eliminating problem
disbursements and duplicate payments because funds were not reserved in the
accounting system at the time the payment was prevalidated. The available fund
balance in the accounting system was not reduced until after the payment was
actually disbursed and the transaction transferred and recorded in the accounting
system. The lag time between the date the payment is prevalidated and the date
the disbursement is recorded in the accounting system allows duplicate payments
to be made. DFAS must implement standard business rules that include
procedures for properly prevalidating all vendor payments.

       Certification of Payments. DFAS had not developed and enforced
standard, effective business rules for certifying vendor payments. Payments
need to be properly certified to ensure that all payments are legal, correct, and
properly supported before being disbursed.

               Certification Procedures. Certification procedures varied at the
nine DFAS field sites and certifying officials did not ensure that all payments
were legal, correct, and proper before being disbursed. Certification officials
often did not thoroughly review the documents supporting the vendor payments
or check the vendors’ EFT information in CAPS against the CCR/CEFT
information before certifying each payment. For example:

       •   DFAS Lawton certified payments that were remotely processed by
           Army installation personnel without reviewing the supporting
           documentation that was entered in CAPS and retained at the
           installations.

       •   At DFAS Rome and DFAS Europe, certification officials did not
           review the EFT information in CAPS before certifying the payments.

       •   Certification officials at DFAS Rock Island only compared
           information in CAPS to the information on the disbursement voucher
           before uploading the payment from CAPS to the Operational Data
           Store (ODS) for subsequent disbursement in the Standard Financial
           System Redesign.

Supporting documentation was not reviewed for compliance and the certifying
officials’ signatures were not affixed to the vouchers. As discussed in
finding C, certification officials often did not detect improperly supported and
erroneous payments. DFAS should have established and enforced strict
business rules to ensure that certification officials are thoroughly reviewing
information supporting payments and signing all disbursement vouchers.
                                     9
               Upload of Payment Data to ODS. DFAS did not establish
standard procedures for transferring information on certified payments from
CAPS to ODS and providing assurance to the disbursing officer that all
payments were certified. Payment information was transferred from CAPS to
ODS by downloading the information from CAPS to a disk and uploading
information from the disk to ODS. The payment information downloaded from
CAPS to the disk was not an encrypted file. Consequently, payment
information on the disk could be altered without having to be recertified before
uploading it to ODS. Once the payment information was uploaded to ODS, it
was electronically transferred to the Standard Financial System Redesign and
disbursed by the central disbursing office. Individuals at the DFAS field sites
responsible for transferring payment information between CAPS and ODS were
either vendor pay technicians, team supervisors, or systems personnel. The
payment office did not provide evidence to the disbursing officer in the central
disbursing office that payments had been certified. The disbursing officer relied
on the system data as proof of certification even though it was possible to alter
the information on the disk. To improve the integrity of the certification and
upload process, certification officials should be responsible for transferring the
payment information from CAPS to ODS and provide the disbursing officer
with proof that the transferred payments have been certified.

        Reports and Reconciliation. DFAS did not establish standard business
rules at field sites for obtaining documents needed to make vendor payments and
updating vendor remittance tables within CAPS. Business rules should provide
guidelines for the reports and reconciliation section to work with the Army and
Defense agencies to obtain needed documents and to input and maintain vendor
information in CAPS.

               Obtaining Documents. Procedures for obtaining missing
supporting documents differed at each DFAS field site and were not always
effective. Some field sites emphasized the need to conduct research and obtain
missing supporting documents by designating individuals or separate teams to
complete research and obtain supporting documents. Creating a separate team
or designating an employee to conduct research proved more efficient and
effective than having the individuals responsible for processing payments also
conduct research. Conducting research and contacting customers was time-
consuming, kept vendor pay technicians from processing payment information,
and slowed down the payment process. The time consumed in accomplishing
research and the delay in the payment can result in unnecessary interest
payments.

                Invoices Without Receiving Reports. DFAS did not have
standard procedures in place to aggressively work with receiving activities to
obtain missing documents. A significant cause of interest payments made by
field sites was due to the inability to obtain proper receiving reports from
receiving activities at installations. CAPS generated a listing called “Invoices
Without Receiving Reports.” The listing identified invoices that had been
received but were not scheduled for payment until receipt of corresponding
receiving reports. The use of the listing varied significantly at each DFAS field
site we visited. The field sites that aggressively worked the listing and
communicated effectively with customers had the lowest number of invoices
over 30 days old. DFAS Rome and DFAS St. Louis had individuals dedicated
                                    10
    to working the listing, sending information to the appropriate activities, and
    calling and requesting information from receiving activities. Field sites such as
    DFAS San Antonio and DFAS DNO, did not aggressively work the listing.
    DFAS and Army financial managers need to work together to ensure that
    receiving reports for goods and services are obtained promptly upon receipt and
    acceptance of goods and services.

                    Updating Vendor Remittance Data. DFAS field sites were
    inconsistent in verifying information in the CCR/CEFT database and ensuring
    that payments were sent as required via EFT. Technicians at DFAS DNO and
    DFAS Norfolk inappropriately sent check payments to vendors who should have
    been registered in the CCR/CEFT database. Sending check payments to
    vendors who were not exempt from registering in the CCR/CEFT database was
    contrary to the Debt Collection Improvement Act of 1996. Although DFAS
    Norfolk and DFAS DNO alerted vendors of the need to register in the CCR,
    neither field site withheld payments or followed up to ensure that vendors
    registered after receiving the notifications. DFAS Rome created a separate EFT
    team to process and research vendor information; however, CAPS access was
    not appropriately restricted. Not verifying and obtaining vendor information
    from the CCR/CEFT database for all payments increased the risk that payments
    would be made to incorrect payees. Business rules should require that
    technicians verify information in the CCR/CEFT database and ensure that
    payments are sent as required via EFT.

            Summary of the Need for Standard Business Rules. DFAS needs to
    establish and enforce standard business rules to create an environment conducive
    to processing accurate and proper payments. The standard business rules should
    complement a standard office structure and be incorporated in DoD
    Regulation 7000.14-R, volume 10. Business rules should include procedures for
    receiving and date-stamping incoming documents in a secure location outside the
    vendor payment office. Personnel in vendor payment offices should also ensure
    that documents supporting payments are adequately screened and controlled and
    payments are computed correctly and properly prevalidated. Organizationally
    independent individuals should certify that payments are legal, proper, and
    correct for payment. Business rules should also define standard procedures for
    transferring payment data between CAPS and ODS and verifying that payments
    transmitted to disbursing officers were certified. Methods for verifying
    information in the CCR/CEFT database and ensuring that payments are sent as
    required via EFT should also be defined in business rules. Enforcement of
    standard business rules helps to ensure that vendor payments are processed
    consistently and accurately and reduces the risk of making erroneous or
    improperly supported payments.

Monitoring the Payment Process
    DFAS did not take advantage of best business practices and management
    oversight was not effective in detecting control weaknesses and improving the
    vendor payment process. In addition, managers were not provided with the
    information they needed to identify and correct weaknesses in the vendor
    payment process. As a result, DFAS field sites continued to make duplicate and
    improperly supported payments and worked individually to develop monitoring
                                       11
tools. Oversight tools and programs should be implemented that detect
weaknesses in the processing of vendor payments, perform root cause analysis,
and develop appropriate corrective actions.

Local Initiatives. DFAS did not share best business practices developed by
field sites. Many field sites developed effective reporting and monitoring tools
designed to improve business operations. For example, DFAS Rome focused
on obtaining missing receiving reports and developed reporting tools to
effectively communicate and electronically submit information to receiving
activities. DFAS Orlando focused on the importance of limiting systems access
and developed a computer program to streamline system access reviews.
Unfortunately, we did not find that these locally-developed tools were shared
with other field sites. Reporting and monitoring tools should be shared with
other field offices in order to improve the processing of vendor payments.
Identifying and Tracking Payment Problems. DFAS did not effectively
implement the software application that was designed to identify potential
duplicate payments, perform frequent and thorough reviews of payments, and
track progress in reducing erroneous payments.

         Predator. DFAS San Antonio was the only field site properly
administering the Predator software application. The other eight DFAS field
sites either were not using the software application or were not using it
correctly. While we could not determine the total dollar value of duplicate
payments made by the DFAS field sites, we identified at least $13.2 million in
duplicate payments.

       •   DFAS Europe claimed the software application was not working and
           had stopped generating Predator reports. We obtained a Predator
           report that DFAS Europe did not analyze and easily identified a
           potential duplicate payment of $120,344.80. DFAS Europe
           subsequently voided the scheduled payment. The potential existed
           that many additional duplicate payments were on the report. In its
           draft report, “Operational Review Europe,” dated May 27, 2001, the
           DFAS Internal Review team identified that DFAS Europe had made
           226 duplicate payments, valued at about $2 million. Many of the
           duplicate payments were on the Predator report we reviewed.

       •   Instead of running Predator daily, DFAS DNO ran the software
           application on a monthly basis. The Predator report provided to us
           identified six actual duplicate payments totaling $7,662.57. Based on
           other reports obtained from DFAS DNO, about $8.5 million in
           duplicate payments were made from March 1999 through May 2001.
           An additional four duplicate payments, valued at $2.5 million,
           discussed on page 4 of this report were not identified on the Predator
           report or the reports obtained from DFAS DNO.

       •   Individuals responsible for administering Predator at DFAS Rock
           Island had not been properly trained. Consequently, dates were
           incorrectly entered in the search parameters when the software


                                   12
              application was used. After they adjusted the search parameters at
              our request, DFAS Rock Island identified six duplicate payments
              totaling $194,418.24.

            When administered properly, Predator is effective in identifying potential
   duplicate payments. Potential duplicate payments must be researched and
   appropriate actions taken on each payment. The tools in Predator should be
   used to track results and generate reports useful to management in identifying
   and correcting payment problems. DFAS should send out a team to each of the
   field sites to ensure that the Predator application is properly installed, provide
   training to individuals running Predator, and assist in researching the results of
   the initial use of the software application.

           Post-Payment Voucher Reviews. DFAS did not perform adequate
   reviews to ensure that certified payments were legal, proper, and correct for
   payment. DFAS Indianapolis designated a team to conduct post-payment
   voucher reviews at each field site once a year. Statistical samples of payments
   were selected from one quarter of the fiscal year and reviewed by the team for
   compliance with the DoD Regulation 7000.14-R, volume 10; DFAS
   Indianapolis Regulation 37-1, chapter 9, “Vendor Pay,” January 2000; and the
   FAR Part 32.905(F). While DoD Regulation 7000.14-R, volume 5, does not
   identify the frequency of the post-payment reviews, we believe that they should
   be performed monthly to ensure that payment errors are promptly identified,
   training is provided in areas where problems are recurrent, and progress in
   correcting problems can be tracked.

           Performance Measures. DFAS did not track the number and dollar
   value of duplicate payments identified by the Predator software application and
   erroneous vendor payments actually made by field sites. Performance
   Management Indicator reports were designed by DFAS to monitor and help
   improve network operations. The monthly reports completed by each field site
   identified such items as the number of overaged invoices; the number of
   contracts, invoices, and receiving reports entered in CAPS; interest penalties;
   and discounts lost and taken. DFAS set standards for items it monitored and
   required field sites failing to meet standards to develop a plan detailing the
   problem areas, causes, planned corrective actions, and expected dates of
   resolution. DFAS did not track duplicate payments identified by the Predator
   software application and other erroneous payments made by field sites. Without
   a means of measuring the extent of the problems, DFAS managers cannot
   determine if the problems are significant enough to require corrective action,
   how much to spend to correct the problems, or the impact of the actions taken.
   DFAS should require the reporting of information on duplicate payments
   identified by the Predator software application and other erroneous payments
   made by field sites. The results should be used to gain an understanding of
   recurring problems and to develop corrective actions.

Summary
   A standard office structure and standardized business rules for making vendor
   payments would promote a strong internal control environment and reduce the
   number of improperly supported payments and the payments that should not
                                       13
    have been made. In such an environment, documents will be controlled better,
    information in CAPS will be properly supported, and vendors will be paid more
    timely and for the correct amount. DFAS and the Army must make a concerted
    effort to ensure that proper receiving reports are obtained promptly upon receipt
    and acceptance of goods and services. To maintain proper segregation of
    duties, DFAS should make sure that no one individual can enter or direct the
    entry of all data needed to make payments and certification officials are
    organizationally independent. More also needs to be done to take full advantage
    of best business practices and improve visibility over problems in processing
    vendor payments.

Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense (Comptroller), in
    coordination with the Director, Commercial Pay Services, develop and
    incorporate into DoD Regulation 7000.14-R, volume 10, standard business
    rules for making vendor payments. The rules must incorporate the
    requirements of 5 Code of Federal Regulations Part 1315, the Debt
    Collection Improvement Act of 1996, and pending changes to the Federal
    Acquisition Regulation.

    Under Secretary of Defense (Comptroller) Comments. The Acting Deputy
    Chief Financial Officer stated that his office has begun to revise DoD
    Regulation 7000.14-R, volume 10, to incorporate pertinent aspects of 5 C.F.R.
    Part 1315 and the Debt Collection Improvement Act of 1996. The updated DoD
    Regulation 7000.14-R, volume 10, is to be issued following receipt and
    consideration of the remaining comments from the DoD Components.

    DFAS Comments. The Director, Commercial Pay Services, partially
    concurred and stated that DFAS would work with the Under Secretary of
    Defense (Comptroller) on appropriate changes to DoD Regulation 7000.14-R,
    volume 10. The Director stated that a vendor pay standardization study was
    conducted that also recognized the need for standard practices. The Director
    stated that detailed processes unique to specific vendor payment offices would
    not be incorporated into DoD Regulation 7000.14-R, volume 10.

    Audit Response. The Under Secretary of Defense (Comptroller) comments
    were partially responsive. The pending change to DoD Regulation 7000.14-R,
    volume 10, should incorporate the requirements in 5 C.F.R. Part 1315 and the
    Debt Collection Improvement Act of 1996. However, DoD Regulation
    7000.14-R, volume 10, should also incorporate standard business rules for
    screening, tracking, controlling, entering, prevalidating, certifying, and
    researching problems with most types of vendor payments. The DFAS
    comments were responsive. Publishing guidance on unique processes in another
    document would be appropriate. We request that the Under Secretary of
    Defense (Comptroller) provide additional comments that address standardizing
    business rules in DoD Regulation 7000.14-R, volume 10. The additional
    comments should also provide an estimated completion date for the actions taken
    or planned.

                                       14
A.2. We recommend that the Director, Commercial Pay Services, improve
the identification and correction of problems in making vendor payments
by:

       a. Identifying the best practices used by vendor payment offices to
detect weaknesses in the vendor payment process and designating those best
practices as standard reporting and monitoring tools.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that 20 recommended changes for standardization resulted from the
vendor pay standardization study. Vendor Pay Support Directors will
implement agreed-upon recommendations. The review of best practices will be
an ongoing topic of discussion at the quarterly meetings with Vendor Pay
Support Directors.
      b. Verifying that the Predator software application has been
properly installed at all field sites and providing individuals who run the
Predator software with sufficient training.

DFAS Comments. The Director, Commercial Pay Services, partially
concurred and stated that the Predator software application produces a high
number of potential duplicate payments that prove to be valid payments after
taking an inordinate amount of time to review. The Director will compare the
edits and query capabilities in the Standard Account and Reporting System One
Pay system to the Predator software to determine whether the Predator software
should be fielded by the Navy support sites. The Director also stated that
improvements to the Predator software would be made in May 2002.

Audit Response. The DFAS comments were partially responsive. While many
of the reports generated by the Predator software application were voluminous,
reviews at the DFAS field sites showed that the Predator software was not being
used properly and individuals responsible for using the software were not
adequately trained on its use. As part of the effort to improve the ability of the
Predator software to screen potential duplicate payments, DFAS should ensure
that each field site properly installs the upgraded software and users understand
how to use it. We request that DFAS reconsider its position and provide
additional comments addressing the need to properly install the software and
provide sufficient training to users.

     c. Performing monthly post-payment voucher reviews to ensure that
payments are legal, proper, and correct for payment.

DFAS Comments. The Director, Commercial Pay Services, partially
concurred and stated that DoD Regulation 7000.14-R, volume 5, does not
establish the frequency of the post-payment reviews. The Director stated that
annual reviews are scheduled at all vendor pay sites. When the error rate drops
below 95 percent then followup reviews will be conducted.

Audit Response. The DFAS comments were partially responsive. In response
to Inspector General, DoD, Report No. D-2002-008, the Director, Commercial
Pay Services, stated that quarterly reviews would revert to monthly if an
unacceptable level of compliance occurred. Post-payment reviews that assess
                                    15
strict compliance with the requirements in 5 C.F.R. Part 1315 should be
performed at least quarterly. Field sites not meeting these requirements should
require more frequent review until the reviews indicate that acceptable levels of
compliance have been achieved. We request that DFAS reconsider its position
and provide additional comments to the final report.

         d. Establishing performance measures that will track the number
and dollar value of duplicate payments and other erroneous payments.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that new performance measures indicators would be developed by
June 28, 2002, to monitor duplicate and other erroneous payments.




                                    16
           B. System Access and Other
              Control Issues
           Access to CAPS(W) and CAPS Clipper was not adequately controlled
           and monitored. System access controls did not properly segregate
           duties, access to payment functions was not consistently assigned to
           payment technicians at DFAS field sites, and remote users were given
           inappropriate access to CAPS(W). Problems existed because:

                  •   standard access profiles were not centrally developed,
                      maintained, and controlled to complement a standard business
                      structure;

                  •   DFAS did not approve funding for the changes needed to
                      correct known system control weaknesses;

                  •   system functionality did not provide for remote user access;
                      and

                  •   effective system interfaces did not exist.

           As a result, CAPS was susceptible to improper and unauthorized use and
           individual users could circumvent the requirements of 5 C.F.R.
           Part 1315.

Guidance and System Functionality
    GAO Report No. GAO/AIMD-00-21.3.1, “Standards for Internal Control in the
    Federal Government,” requires access restrictions and segregation of key duties
    in authorizing, processing, recording, and reviewing transactions. The National
    Computer Security Center has issued guidance on controlling passwords and
    assessing controlled access protection. The functionality of CAPS(W) provides
    DFAS with the flexibility to assign specific payment functions to users based on
    assigned responsibilities of vendor payment personnel. The payment functions
    can be further limited to allow a user to only add, delete, update, or inquire
    about the payment data in CAPS(W). DFAS used CAPS Clipper to make
    payments at the DFAS field sites in Europe, Rock Island, and St. Louis because
    CAPS(W) could not interface with certain accounting systems or handle foreign
    currency transactions. The 54 USPFOs also used CAPS Clipper to make
    vendor payments.

System Access Within CAPS(W)
    System access profiles were not centrally controlled and monitored. The system
    access profiles developed by the DFAS field sites using CAPS(W) did not
    adequately segregate payment functions. To ensure strong management control
    over the vendor payment process, DFAS needs to complement the development
    of a standard business structure and business rules with system access profiles

                                       17
that sufficiently segregate duties for making payments. The profiles should
segregate the ability to enter payment data, compute payments, and certify
payments and be consistently assigned at each field site. In addition, the ability
to add or update data within the vendor maintenance function must be
segregated from the other functions and be granted to a limited number of
individuals.

System Access Profiles. DFAS system and vendor payment managers did not
establish standard system access profiles or take other appropriate actions to
adequately control access to CAPS(W). System managers at DFAS Indianapolis
allowed each of the field sites using CAPS(W) to develop and maintain their
own system access profiles. In addition, system access was not centrally
monitored to ensure adequate separation of duties.

        Initial Site Visit. In August 2000, we found that system access at
DFAS Norfolk was not adequately controlled. Four users had been granted the
system access that permitted them to enter payment information, compute
payments, and certify the payments. Eighteen payment technicians could add or
update the vendor payment data and compute the payment without another
individual intervening. Because technicians had access to all payment functions,
they could also adjust the payment terms to prevent the payment from paying
interest. An additional 37 individuals could change where a payment was sent
and certify the payment. These individuals could redirect a vendor payment
without another individual intervening in the process.

        Discussions with DFAS Managers. In September 2000, we began to
hold meetings with system and vendor payment managers at DFAS Indianapolis
to discuss concerns with the lack of segregation of duties. We concluded that
centrally developed system access profiles needed to be established to better
segregate the payment functions assigned to technicians at field sites using
CAPS(W). DFAS managers agreed with the need to establish standard system
access profiles. We discussed the need to establish nine system access profiles
to segregate the following functions within CAPS(W).

               Invoice Maintenance. This function allows the user to enter,
update, or delete the data from an invoice. Individuals with access to this
payment function should not be able to certify payments or add and update
vendor maintenance data.

               Receiving Report Maintenance. This function allows the user
to enter, update, or delete information from the receiving report. Individuals
with access to this payment function should not be able to certify payments or
add and update vendor maintenance data.

               Purchase Order Maintenance. This function allows the user to
enter, update, or delete contract and authorization data in CAPS(W).
Individuals with this access should not be able to compute or certify payments or
add and update vendor maintenance data in CAPS(W).

              Vendor Maintenance. This function allows the user to enter,
update, and delete the vendor maintenance data needed to process EFT

                                    18
information and check remittance data in CAPS(W). Since individuals with this
access can direct where a payment is sent, they should not be able to certify
payments or alter any of the other data needed for making payments.

               Compute. This function allows the user to combine the data
entered from invoices, receiving reports, and contracts or other authorization
documents and compute the payment due date and any interest payments owed
the vendor. This function should be assigned to technicians within the contract
or miscellaneous payment teams who can compare the data entered by the input
technician and ensure that the data meet the requirements for payment. These
technicians should also verify that EFT information and check remittance data
are correctly entered by comparing it to the CEFT database. However, they
should not be able to update payment data within CAPS(W) or certify the
payment.
              Certify. This function allows the user to certify the payment and
upload the payment to disbursing. This function should be assigned to users that
are approved certification officials. Certification officials should not be able to
add, update, delete, or compute the payment data.

        System Access Profiles at DFAS Field Sites. DFAS managers took
limited actions to ensure that the field sites implemented the standard system
access profiles or to otherwise ensure that system access controls within
CAPS(W) contributed to proper segregation of duties. DFAS Orlando was the
only field site to implement the system access profiles. The other DFAS field
sites continued to develop unique system access profiles. Significant
inconsistencies existed in how the field sites assigned the payment functions key
to segregating the payment process. For example, while the vendor payment
operations in DFAS Orlando and DFAS San Antonio were similar in size,
DFAS San Antonio assigned significantly more people the ability to perform key
payment functions. The numbers of individuals assigned the key payment
functions at DFAS DNO, DFAS Lawton, and DFAS Rome also differed
significantly even though they had vendor payment operations that were similar
in size. As shown in Table 1, inconsistencies existed in the assignment of the
key payment functions at each of the DFAS field sites visited from August 2000
through March 2001.




                                    19
                    Table 1. Inconsistencies in Assignment of Key Payment Functions

               Number                     Receiving       Purchase
 DFAS            of        Invoice         Report          Order          Vendor
Field Site      Users     Maintenance    Maintenance     Maintenance     Maintenance    Compute     Certify
DNO             2551          86            150             188              56           80          44

Lawton           2192          85             127             50             105            93        42

Lexington         56           35             35              35              16            32         6

Norfolk           773          22             22              22              59            56        41

Orlando          1244          35             36              11               6            49         8

Rome              111          68             68              97              97            67        39

San              7005          62             467             213            325           210        105
Antonio
Seaside           17           16             16              16               7            11         4

1.     Includes 64 remote users granted access to enter receiving reports and contracts.
2.     Includes 139 remote users granted access to enter invoices, receiving documents or certify payments.
3.     Includes 42 remote users granted access to 8 users to enter invoices, receiving reports, purchase
       order and 34 with all access.
4.     Includes 23 remote users granted access to enter data or certify payments. Access was removed prior
       to site visit. Vendor maintenance includes 4 remote users.
5.     Includes 506 remote users granted access to enter or certify data.


             Most DFAS field sites limited the ability to enter invoices and receiving
     reports to technicians assigned to a vendor payment team. However, DFAS
     San Antonio provided 254 individuals at various installations with the ability to
     enter receiving reports into CAPS(W). Despite granting the remote access,
     DFAS San Antonio had problems obtaining receiving reports because the
     individuals with the remote access did not use the access granted to them to
     enter the receiving report data. In addition, DFAS field sites provided between
     2 and 325 individuals with the ability to direct where payments could be sent.
     DFAS field sites also had not appropriately limited the number of users who
     could certify payments. Three field sites allowed only supervisors or other
     appointed officials access to certify payments and limited access to no more than
     eight users. Other field sites allowed up to 105 users to certify payments,
     including system management personnel, remote users, and data entry clerks.

            Changes to Initial System Access Profiles. The invoice maintenance
     function, receiving report maintenance function, and purchase order
     maintenance function could be combined into one function provided that the
     same individuals did not also have the ability to compute payments. DFAS
     Lawton developed system access profiles to separate who could enter data,
     compute payments, and certify contract payments. However, similar
     requirements were not implemented for segregating duties for making

                                              20
    miscellaneous payments. A miscellaneous payment function had been designed
    to provide users with the ability to enter all payment information, compute the
    payment, and enter, update, and delete vendor maintenance data. At a
    minimum, separate individuals should be responsible for entering payment
    information, computing the payment, and certifying the payment. As discussed
    in Inspector General, DoD, Report No. D-2002-008, the ability to delete data
    should be limited to only a few supervisory personnel who can ensure that a
    proper audit trail is maintained.

             System Access Profiles at Smaller Field Sites. DFAS managers
    expressed concerns that standard system access profiles would not be practicable
    at field sites with smaller vendor payment offices. They stated that these sites
    did not have sufficient personnel to segregate the ability to enter, compute, and
    certify data. Reviews of system access at the field sites (DFAS Lexington,
    Lexington, Kentucky; DFAS Norfolk; and DFAS Seaside, Seaside, California)
    with smaller offices for making vendor payments using CAPS(W) showed that
    these offices probably did not have sufficient personnel to properly segregate
    duties if the standard system access profiles were implemented. However, the
    need still existed to properly segregate payment functions to minimize the risk
    that erroneous payments could be made without detection. DFAS managers
    should assess vendor payment operations at field sites with small vendor
    payment offices and determine whether it would be more cost-effective to
    increase the staffing levels at these sites or move the workload to a field site
    capable of properly segregating payment duties.

Remote Access to CAPS(W)
    Only three of the eight DFAS field sites making payments using CAPS(W)
    restricted access to individuals at the field site. As discussed in Inspector
    General, DoD, Report No. D-2002-008, the system functionality of CAPS(W)
    did not restrict remote users to only transactions related to their organization.
    Consequently, individuals granted the ability to enter payment data or certify a
    payment for one site could perform the same function on other payments within
    the CAPS database. DFAS should remove the ability to update and certify
    information in CAPS(W) from all remote users until the system can provide
    proper segregation of duties and security over remotely entered data.

Use of CAPS Clipper
    The Clipper version of CAPS did not have the functionality necessary to
    properly segregate payment functions. In addition, CAPS Clipper allowed
    certain users to alter payment data during the computation process. Major
    system changes were needed to properly segregate access in CAPS Clipper.

    Segregation of Payment Functions. The payment functions in CAPS Clipper
    did not properly segregate duties. The level of access individuals had to CAPS
    Clipper depended upon which of the payment functions they were assigned.
    The following six payment functions existed in CAPS Clipper.


                                        21
           •   Enter Invoice and Receipt. This function allows the user to enter
               all invoice and receiving report information.

           •   Enter Purchase Order. This function allows the user to enter
               purchase order data and vendor remittance information.

           •   Enter Modification. This function allows the user to amend
               purchase order data, EFT information, and vendor remittance data.

           •   Compute. This function allows the user to compute the payment
               amount and due date. A user with this access can also change any of
               the payment information entered, including the invoice receipt dates,
               EFT information, vendor remittance data, and payment terms.

           •   Delete. This function allows the user to delete data previously
               entered in the system.

           •   Interface. This function allows the user to upload payments from
               CAPS Clipper to the disbursing system.

    At a minimum, the following system changes were required to properly
    segregate payment functions.

           •   Separate the ability of entering EFT information and vendor
               remittance data from all other entry and computation functions.

           •   Remove the ability to alter payment information from the compute
               function.

    Conclusion. DFAS must assess the practicality of maintaining CAPS Clipper.
    Even though the fielding of DPPS has slipped, we recognize that making needed
    system changes may no longer be practical or cost-effective. If system access
    controls can not be improved in a cost-effective manner, DFAS should develop
    plans to move the vendor payment workload to another system that will allow
    duties to be properly segregated. DFAS should also determine whether
    sufficient personnel are available at each site that makes vendor payments using
    CAPS Clipper and consolidate vendor payment operations as needed.

Other System Deficiencies Within CAPS
    Deficiencies existed within CAPS for controlling user passwords, monitoring
    system inactivity, and securing upload files transferred between CAPS and
    disbursing systems. Although these problems had been recognized by DFAS
    managers and identified in the Annual Statements of Assurance prepared by
    DFAS field sites since 1998, funding for needed system changes had not been
    approved because DPPS was to be fielded in FY 2001. However, because plans
    to replace CAPS with DPPS have slipped from FY 2001 to an undetermined
    date, known system deficiencies require immediate correction.

    Password Controls. Password controls in CAPS(W) and CAPS Clipper did not
    adequately protect the vendor payment databases used to store vendor payment
                                       22
information and make vendor payments. CAPS did not limit the number of
attempts an individual user could make at entering a password. According to
the National Computer Security Center Standard 002-85, “DoD Password
Management Guide,” April 1, 1985, controls should be established on the
number of guesses an individual user identification may attempt before the
system prevents access. Individuals could also sign on at multiple locations
using the same user identification and password. This allows for the sharing of
passwords and circumvention of system access controls. Further, system
administrators could view the system-generated passwords. The system
administrator generated the user identification and passwords and provided the
individual users with their passwords. Since the system administrators can view
the passwords, the passwords were exposed to individuals other than the user
and were subject to compromise. As a result of these deficiencies in password
controls, information in CAPS was highly susceptible to unauthorized use and
manipulation.
DFAS field sites did not ensure that CAPS required an immediate password
change upon initial entry to the system using a default password. The DoD
Password Management Guide recommends that default passwords be changed
immediately. The system should identify the user identification as having an
expired password and require the user to change the default password before
receiving authorization to access the system. This process ensures that the
individual assigned the user identification is the only person who knows the
password. At DFAS San Antonio, we were able to gain access to the system
using the default password. We determined that some potential users had never
accessed the system. Consequently, they never changed the default password.
System managers should ensure that the default password is set to expire soon
after being issued.

Monitoring System Activity. Neither version of CAPS could provide an audit
trail to track system activity or disable user identifications for non-use of the
system. Auditing logs should capture user actions. The National Computer
Security Center Technical Guide 028, “Assessing Controlled Access
Protection,” May 25, 1992, recommends that a system be able to record system
activity for each user identification. Auditing logs assist managers in
determining that only authorized and valid users have access to the system. The
system should also be capable of disabling a user identification that is not used
within a specific timeframe. Disabling user identifications ensures the removal
of users who do not frequently access the system. DFAS should change CAPS
so that it can monitor system activity and remove access from individuals who
do not access CAPS for more than 45 days.

Encrypting System Uploads. The upload files that are sent from CAPS to the
disbursement systems were not secure. The database files were not encrypted
and could have been manipulated and changed. DFAS needs to encrypt the data
files transferred between CAPS and the disbursement systems to ensure the
integrity of certified payments.




                                   23
System Interfaces
     Operational interfaces between CAPS and SPS and the CEFT database were not
     functioning properly or did not exist. DFAS field sites had to manually enter
     the payment data needed to populate the purchase order and vendor remittance
     fields in CAPS. Entering data twice increases the risk of data input errors and
     erroneous payments.

             Standard Procurement System. Contract data were not electronically
     interfaced between CAPS and SPS. During FY 2001, technicians had to
     manually enter the information from at least 66 percent of all contracts entered
     into CAPS before a payment was made. DFAS reported that delays in entering
     contract data into CAPS resulted in the payment of interest penalties of
     $1.2 million in FY 2000 and $1.9 million in the first 10 months of FY 2001.
     DFAS and the Army have been working to resolve this issue but significant
     progress has not been made. Problems include the lack of standard system edits
     between the systems and inconsistencies in DoD regulations concerning required
     payment information. The Directors of several DFAS field sites told us that the
     inability to interface data between the systems caused significant backlogs in the
     entry of contract data and delays in making payments to vendors. Problems
     entering contract data were especially acute at the beginning of each fiscal year.
     Based on the implementation plan for DPPS, contract data from SPS will
     interface with DPPS. Until DPPS is fielded, DFAS and Army managers should
     work together to overcome obstacles that prevent the automated interface of
     contract data between SPS and CAPS.

             CEFT Database. Neither version of CAPS had an electronic interface
     with the CEFT database. As a result, DFAS field sites granted access to most
     vendor payment technicians to manually enter EFT information and vendor
     remittance data into CAPS. An automated interface with the CEFT would
     ensure that proper remittance information is entered into CAPS, limit the
     number of times the data needed to be entered, and reduce problems segregating
     duties at DFAS field sites. DFAS should develop an action plan for interfacing
     the data contained in the CEFT with the CAPS vendor maintenance tables.

Summary
     Access to CAPS(W) and CAPS Clipper was not adequately controlled and
     monitored. DFAS field sites making payments for the Army and Defense
     agencies did not limit the number of users who could update the vendor
     maintenance tables, enter miscellaneous payments, and delete information in
     CAPS. Standard user profiles for CAPS should be developed that fully consider
     the need to standardize the structure of the vendor payment office and business
     practices within DFAS for making vendor payments. Remote access should be
     removed until proper system controls can be implemented. Password controls
     need to be improved and system controls need to be updated. Plans for
     overcoming problems that have prevented automated interfaces between CAPS
     and SPS and the CEFT database also need to be developed and implemented.
     System activity also needs to be adequately monitored and controlled. Certified

                                         24
    data sent to the disbursement system must not be subjected to potential
    compromise or alteration. Although some of these problems were recognized
    by DFAS managers and identified in the Annual Statements of Assurance
    prepared by DFAS field sites, corrective actions were not taken in anticipation
    of the fielding of DPPS. However, since DPPS will not replace CAPS as soon
    as originally planned, known system deficiencies require immediate correction.
    Until proper corrective actions can be implemented or CAPS is replaced by
    DPPS, the access and control deficiencies with both versions of CAPS should be
    reported as a material control weakness in the DFAS Annual Statement of
    Assurance.

Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Director, Commercial Pay Services:

          1. Develop and implement standard system access profiles to
    complement a standard business structure for making payments using the
    Computerized Accounts Payable System.

    DFAS Comments. The Director, Commercial Pay Services, concurred and
    stated that standard system access profiles for making payments using CAPS
    were being evaluated. Implementation of standard system profiles with the
    appropriate realignment of organizational elements will take place in June 2002.

            2. Evaluate the ability of smaller vendor payment offices to use
    standard system profiles. As necessary, increase the staffing needed to
    adequately segregate duties or relocate vendor payment operations to a field
    site that can properly segregate duties.

    DFAS Comments. The Director, Commercial Pay Services, partially
    concurred and stated that a review was being conducted to determine the ability
    of smaller vendor payment offices to use standard system profiles and maintain
    proper segregation of duties.

    Audit Response. The DFAS comments were partially responsive. If smaller
    vendor payment offices cannot implement the standard system profiles, DFAS
    must take appropriate actions to properly segregate payment functions or move
    the workload to a field site capable of implementing the standard system
    profiles. We request that DFAS provide additional comments to the final
    report.

           3. Remove remote access to update and certify information in the
    Computerized Accounts Payable System for Windows until the system can
    provide proper segregation of duties and security over remotely entered
    data.

    DFAS Comments. The Director, Commercial Pay Services, partially
    concurred and stated that remote certification access was removed at all Army
    Vendor Payment Support sites. The Director also stated that two remote access

                                       25
profiles were being developed. One profile will allow users to input contracts,
modifications, invoices, and receiving report information. The other profile
will allow remote users to compute payments.

Audit Response. The DFAS comments were partially responsive. Creation of
the two new profiles will not alleviate many of the issues concerning remote
access. Before remote access can be considered, CAPS(W) must be modified to
restrict remote users to only information related to their organization and system
controls must be developed to ensure that information entered by remote users is
not altered after entry. In addition, controls must be adequate to provide
certifying officials with reasonable assurance that the information entered by
remote users is accurate and supported. We request that DFAS reconsider its
position and provide additional comments to the final report.

       4. Develop a plan of action to have field sites using the Clipper
version of the Computerized Accounts Payable System use another vendor
payment system unless system access controls can be improved and other
system deficiencies corrected in a cost-effective manner.

DFAS Comments. The Director, Commercial Pay Services, partially
concurred and stated that improvements to the Clipper version of the CAPS
were determined to be cost-effective. Improvements to system access controls
will be fielded in July 2002 with the release of CAPS Clipper version 7.0.

       5. Develop and fund system change requests to correct password
and system control deficiencies in the Computerized Accounts Payable
System for Windows.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that system change requests have been developed to correct password and
system control deficiencies. The changes will be included in the CAPS version
7.0 release.

       6. Develop action plans for overcoming obstacles that prevent the
automated interfacing of data between the Computerized Accounts Payable
System and the Standard Procurement System and for implementing
automated interfaces between the Computerized Accounts Payable System
and the Corporate Electronic Funds Transfer database.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that a Memorandum of Agreement between DFAS and the Army
addressing the interface between SPS and CAPS was signed on November 26,
2001. System change requests have been written to refine the SPS files so that
CAPS can receive them without manual intervention. The Director also stated
that CAPS is scheduled to interface with the CEFT database in the 6.0 release
scheduled for November 2002.

      7. Report access and control deficiencies with the Computerized
Accounts Payable System as a material control weakness in the Annual



                                    26
Statement of Assurance for the Defense Finance and Accounting Service
until proper corrective actions can be implemented or the system is replaced
by the Defense Procurement Payment System.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that two material control weaknesses related to access and control
deficiencies with CAPS were reported in the DFAS Columbus FY 2001 Annual
Statement of Assurance for Vendor Pay Services.




                                 27
          C. Document Requirements for Making
             Vendor Payments
          DFAS field sites frequently made erroneous payments and other
          payments that were not fully supported by proper documents. We
          estimate that 181,406 of the 236,940 vendor payments made by DFAS
          field sites for the Army and Defense agencies from May 1 through
          July 31, 2000, lacked at least one element of support required by
          5 C.F.R. Part 1315. We also estimate that 30,584 payments were in the
          wrong amounts. Erroneous payments and improperly supported
          payments were made because:

              •   DoD Regulation 7000.14-R, volume 10, allowed exceptions to
                  requirements for a proper invoice and did not specify what a
                  receiving report must contain to properly support a payment;

              •   technicians incorrectly entered payment data and miscomputed
                  payment vouchers in CAPS;

              •   receiving activities provided inaccurate data on the receipt and
                  acceptance of goods and services;

              •   standardized business rules did not exist for properly supporting
                  all types of miscellaneous payments; and

              •   technicians and certification officials either did not detect missing
                  and incomplete items on supporting documents or considered the
                  items unnecessary for making the payments.

          As a result, DoD managers assumed an increased risk that payments
          were not being made in compliance with the PPA. In addition, resources
          were diverted from their intended use due to efforts to correct duplicate
          payments and other erroneous payments.

Supporting Vendor Payments
    Criteria. 5 C.F.R. Part 1315 identifies strict requirements that supporting
    documents must meet in order to be proper for payment. The requirements for
    supporting documentation are further defined in FAR subpart 32.9, DFARS
    subpart 232.9, and DoD Regulation 7000.14-R, volume 10. DFAS field sites
    made payments based on contractual documents that needed to comply with
    5 C.F.R. Part 1315 requirements. Miscellaneous payments to businesses and
    individuals had limited business rules on how each payment should be
    supported. DoD Regulation 7000.14-R, volume 10, and DFAS Indianapolis
    Regulation 37-1, chapter 9, January 2000, contain some guidance on how to
    support miscellaneous payments. Guidance on supporting documentation is
    discussed in Appendix D. Erroneous payments are a significant problem
    receiving increased attention by the Congress and GAO. Payments made for
    incorrect amounts are considered erroneous payments.

                                       28
    Sample Selection. To determine whether vendor payments made using CAPS
    were properly supported, we obtained a population of 236,940 CAPS payments,
    valued at about $4.1 billion, made from May 1 through July 31, 2000. From
    this population, we selected a sample of 300 payments in 3 strata. We used the
    criteria in 5 C.F.R. Part 1315 to assess the documents (invoice, receiving
    report, and obligation document) that supported each sample item. The sample
    was also used to determine whether the data on the supporting documents were
    entered correctly in CAPS. Details concerning sample methodology are
    contained in Appendix E.

Sample Results
    The sample estimated that 181,406 payments made from May 1 through July 31,
    2000, were not properly supported as required by 5 C.F.R. Part 1315. Table 2
    shows the projections of the estimated number of payments that were not
    properly supported for each type of payment. Appendix E gives details of
    projections and confidence levels.

                     Table 2. Estimated Payments Not Properly
                           Supported by Type of Payment
        Type of          Sample       Total Payments         Estimate of Improperly
        Payment           Size                                Supported Payments*
       Contractual        148              105,913                   80,620
      Miscellaneous       152              131,027                  100,787
         Total            300              236,940                  181,406

      *The estimates of improperly supported payments do not total because of rounding.


    To be considered proper, documents supporting contract payments must meet
    the requirements in 5 C.F.R. Part 1315. We also held supporting
    documentation for miscellaneous payments to similar standards. The items
    required for properly supported payments are contained in Appendix D. Our
    sample also identified 39 erroneous payments that were paid in the incorrect
    amount to vendors and other authorized individuals. When projected over the
    entire population, 30,584 payments were erroneous. Appendix E gives details
    of the sample projections. We also questioned the appropriateness of an
    additional 31 payments based on available information.

    These results were consistent with previously reported findings in Inspector
    General, DoD, Report No. D-2000-139, and Report No. D-2002-008. It
    showed that DFAS management did not strictly enforce the requirements for
    proper supporting documents, creating an environment where erroneous
    payments can be made without detection. It demonstrates the need for DFAS
    and DoD acquisition and financial managers to work together to strictly enforce
    the requirements in 5 C.F.R. Part 1315. Further, FAR subpart 32.9 was not
    updated until December 18, 2001. DFARS subpart 232.9 and DoD


                                            29
        Regulation 7000.14-R, volume 10, still have not been updated with the
        requirements in 5 C.F.R. Part 1315. Guidance needs to be changed to ensure
        proper payments are made.

Contractual Payments
        Determination of Proper Payments. The sample results estimated that from
        May 1 through July 31, 2000, DFAS field sites made approximately
        80,620 contract payments for Army and Defense agency customers without the
        proper support. DFAS technicians and certification officials either did not
        detect missing items required on supporting documents or considered the items
        unnecessary for making the payments. Documents that lacked the required
        elements of support should have been returned to the originator and no payment
        made until a corrected copy of the document was obtained. Table E-2
        (Appendix E) shows the estimated number of unsupported payments caused by
        each type of supporting document. 2 Because more than one document could
        have caused a payment to be improperly supported, the total number of
        improperly supported payments in Table E-2 exceeds 80,620 payments.

               Invoices. The review of sample contractual payments showed that
        38 invoices did not properly support the payments. (More than one invoice
        supported some payments.) Invoices were considered improper if they did not
        contain a valid contract number, did not adequately describe what was
        purchased or the description was inconsistent with the contract, or were altered.
        Our sample showed the following.

                •   DFAS field sites made 29 payments using vendor invoices that did
                    not have a contract number.

                •   Items billed on invoices related to 22 contracts were not consistent
                    with the contract line items or did not contain an adequate description
                    of the items being invoiced.

                •   Invoices related to 10 contracts were altered to make the invoices
                    proper for payment. All of the altered invoices were corrected by
                    someone other than the vendor and did not clearly state that the
                    invoice was a corrected copy.

        When the results were projected over the entire population, 32,437 vendor
        invoices were not proper for payment and should have been returned to the
        vendor for correction. Appendix E gives details of the sample projections.
        DFAS technicians accepted the invoices even though the required information
        was missing or incomplete because DoD Regulation 7000.14-R, volume 10,
        allowed exceptions to the requirements for a proper invoice. However,
        5 C.F.R. Part 1315 required the return of any improper invoice to the vendor
        within 7 days of receipt. The FAR and DoD Regulation 7000.14-R, volume 10,
        had not been updated with the more stringent requirements for invoices that had

2
More than one invoice and receiving report could have supported a payment. For sampling purposes,
we considered each payment to have only one invoice and receiving report.

                                                30
been added to 5 C.F.R. Part 1315 in September 1999 (Appendix D). Inspector
General, DoD, Report No. D-2000-139, addressed the need for the Under
Secretary of Defense (Comptroller) to change DoD Regulation 7000.14-R,
volume 10. As of the date of this report, the regulation had not been changed.

        Receiving Reports. The review of sample contractual payments showed
that 102 did not have properly supported receiving reports. (Some payments had
more than one receiving report.) Receiving reports were considered improper
if they did not contain a valid contract or obligation number; did not contain a
proper receipt and acceptance date; did not adequately describe the goods
received or services performed or the description was inconsistent with the
contract; or did not contain proper signature information for the receiving or
accepting official. Our sample showed the following.

       •   DFAS field sites made 23 payments using receiving reports that did
           not identify a valid contract number.

       •   Receiving reports related to 49 payments did not show the dates
           receipt and acceptance occurred.

       •   Items on receiving reports related to 54 contracts were not consistent
           with the contract line items or did not contain an adequate description
           of the goods and services received.

       •   Required signature information was not on receiving reports related
           to 76 contracts.

When our results were projected over the population, 74,000 receiving reports
did not meet the requirements of a proper receiving report and should have been
returned to the receiving activity for correction. Appendix E contains details on
sample projections. Most of the forms that were used as receiving reports that
we found to be improper were not designed to be receiving reports. In response
to Inspector General, DoD, Report No. D-2002-008, the Director, Defense
Procurement, will require DD Form 250, “Material Inspection and Receiving
Report,” be used as the primary means for documenting receipt and acceptance
of goods and services. The use of DD Form 250 should significantly improve
compliance with the requirements in 5 C.F.R. Part 1315.

         Contracts. The review of sample items showed that 13 contracts did
not provide proper payment support. Twelve contracts did not contain sufficient
information for the payment office to properly match invoice and receipt
information and make the payment to the correct vendor. In one instance, the
payment office could not locate the contract and the contract was not in the
EDA system.

Specific Problems Related to Documents Supporting Contractual Payments.
At DFAS field sites making vendor payments using CAPS for the Army and
Defense agencies, we identified the same types of problems with the invoices,
receiving reports, and contracts that we identified at DFAS Kansas City. We
identified those problems in Inspector General, DoD, Report No. D-2002-008.


                                   31
We also identified several additional problems with making vendor payments for
the Army and Defense agencies that warrant the attention of DFAS and Army
acquisition and financial managers.

        Invoices Sent to Designated Billing Offices. The sample showed that
invoices supporting 28 contractual payments did not identify that the designated
billing office affixed the invoice receipt date to the invoice. In these cases, it
was not easy to determine whether the affixed date stamp belonged to the billing
office designated in the contract or to some other activity. DFAS field sites did
not verify who affixed the date stamp on the invoice. They assumed that the
date reflected the date the invoice was received in the designated billing office.
Instead, the date of the invoice should have been used to determine the payment
due date. During FY 2001, DFAS Indianapolis issued three policy messages
that reiterated the requirements that a date stamp identify the designated billing
office. DFAS field sites should use the invoice date in calculating the payment
due date if the date stamp does not clearly identify the designated billing office.
DFAS field sites should identify designated billing offices that do not clearly
demonstrate that they affixed the invoice receipt dates to invoices and work with
the Army to provide training on the importance of affixing identifiable date
stamps on invoices provided to the payment offices.

         Validity of Receipt and Acceptance Dates. Receiving activities
provided DFAS field sites with receipt and acceptance dates on receiving reports
that did not reflect the actual dates the goods or services were received and
accepted. We contacted receiving activities and analyzed the data provided on
invoices and contracts and determined that 64 contractual payments were made
based on receipt and acceptance dates that did not reflect the actual dates the
activity should have received the items invoiced. DFAS field sites rarely
questioned the validity of the receipt and acceptance dates provided by receiving
activities. The date on the receiving report usually represented the date an
official completed the receiving report, not the actual date that the goods or
services were received and accepted. For example:

       •   Invoice number 000-013 was received at DFAS Rock Island for
           support services performed from March 12 through 25, 2000. A
           Government official signed the receiving report on April 17, 2000,
           and the payment was made on May 15, 2000. We called the receiver
           and determined that the date reflected the date that the receiver
           certified the invoice for payment, not the date the services were
           received and accepted. The receiver stated that at the time this
           receiving report was filled out she was not aware that the actual dates
           for receipt and acceptance were needed. If the payment was based
           on the actual constructive acceptance date of April 1, 2000, the
           vendor would have been entitled to approximately $2,800 in interest.

       •   DFAS Lexington made a payment on July 27, 2000, based on a
           receipt and acceptance date of June 16, 2000. However, a
           spreadsheet attached to the receiving report showed the actual receipt
           date was May 31, 2000. Had the payment due date been computed
           based on the actual receipt date, this vendor was due $600 in interest
           penalties that were not paid.

                                    32
    When projected over the entire population, 37,949 payments were made using
    receiving reports with dates that did not reflect the actual dates of receipt and
    acceptance. Appendix E contains details on sample projections. The use of later
    dates for computing payment due dates often resulted in payments being made
    later than they should have been and in amounts that deprived vendors of
    required interest penalties. Some receivers informed us that they were unaware
    of the requirement to provide proper dates for receipt and acceptance of goods
    and services on receiving reports. Army managers need to train all individuals
    authorized to receive goods and services on the need to record the actual dates
    the activity received and accepted the goods and services on the receiving
    reports. Further, DFAS technicians should assess whether the dates provided
    on receiving reports are reasonable based on the information on the invoices and
    contracts and the documents accompanying receiving reports. In situations
    where the dates do not seem reasonable, the technician should contact the
    receiver and verify that the receiving report identifies the actual receipt and
    acceptance dates.

            Delivery Order Contract Paid at Multiple Field Sites. DFAS Lawton,
    DFAS Rock Island, and DFAS St. Louis made payments on contract number
    DABT60-97-D-0007. The sample payment reviewed at DFAS St. Louis showed
    that the invoice and receiving report did not properly support the payment
    because they were inconsistent with the line items on the contract. The basic
    delivery order contract identified DFAS Lawton as the payment office but the
    contracting office issued delivery orders to two other DFAS field sites. Further
    research showed that delivery order number 0139 was paid by both DFAS
    Lawton and DFAS Rock Island, and the vendor used the same invoice to bill
    both DFAS field sites. We did not perform enough work to identify any
    duplicate payments; however, allowing multiple payment offices to make
    payments on the same contract increases the potential for duplicate payments.
    The built-in system edit checks in CAPS and the use of the Predator application
    will not detect and prevent duplicate payments from being made by multiple
    DFAS field sites. Army contracting needs to eliminate the practice of creating
    contracts with more than one payment office, and DFAS and Army fund
    managers should conduct an audit of the contract number DABT60-97-D-0007
    to determine whether duplicate or erroneous payments have been made.

Support for Miscellaneous Payments
    Inspector General, DoD, Report No. D-2000-139, recommended that the Under
    Secretary of Defense (Comptroller) amend DoD Regulation 7000.14-R,
    volume 10, to standardize the business rules for making properly supported
    miscellaneous payments. As of the date of this report, the guidance for making
    vendor payments in DoD Regulation 7000.14-R, volume 10, had not been
    changed. The guidance in DFAS Indianapolis Regulation 37-1 also did not
    identify what information is required to properly support each type of
    miscellaneous payment. At a minimum, the payment office should require that:

           •   a proper authorization document exists that supports the vendor’s or
               claimant’s claim against the Government;

           •   a request exists for payment by the claimant or vendor; and
                                       33
       •   an employee at the receiving activity acknowledges that the claim,
           item, or service was received and accepted.

Although DFAS field sites tried to follow guidance for making miscellaneous
payments, procedures were inconsistently followed and improperly supported
payments were made. The use of Standard Form 1034, “Public Voucher for
Purchases and Services Other than Personal,” for other than its intended
purpose was associated with many of the improperly supported miscellaneous
payments.

Requirements for Proper Support. Invoices, receiving reports, and obligation
documents supporting miscellaneous payments were frequently not proper. The
sample showed that 100,787 payments were made from May 1 through July 31,
2000, without sufficient support (see Appendix E). Table E-3 shows the
estimated number of unsupported payments caused by each type of supporting
document. Because more than one document could have caused a payment to be
improperly supported, the total number of improperly supported payments in
Table E-3 exceeds 100,787 payments.

Although problems existed with some of the invoices and obligation documents
supporting miscellaneous payments, all of the improperly supported payments
had an improper receiving report. The receiving reports did not contain enough
information to ensure that the receiving reports were proper or that the claim,
goods, or services were actually received and accepted by an authorized
Government official. Inspector General, DoD, Report No. D-2002-008,
recommended that the Director, Commercial Pay Services, develop interim
procedures for making properly supported miscellaneous payments that can be
used by the DFAS field sites until DoD Regulation 7000.14-R, volume 10, is
changed. As of September 7, 2001, the Director, Commercial Pay Services,
had not issued interim procedures for making properly supported miscellaneous
payments.

Use of the Standard Form 1034. Payment offices improperly made
miscellaneous payments based on information found on SF 1034s. The SF 1034
is a payment voucher that should be used to provide the payment office with the
authority to make a payment, which is certified and signed by an authorized
certifying official appointed as specified in DoD 7000.14-R, volume 5.
Supporting documents are either attached to the form or retained at the office
preparing the SF 1034. Technicians at the DFAS field sites are only required to
enter the information from the SF 1034 into CAPS. For 18 miscellaneous
payments in our sample, an SF 1034 was inappropriately used as the receiving
report and obligation document. Sometimes the voucher number on the
SF 1034 was used as the invoice number instead of the actual invoice number
from the vendor invoice. This practice made it difficult for vendors to identify
what invoices were being paid and increased the risk that a duplicate payment
could occur. For 15 other sample items, an SF 1034 was signed by an
authorized certifying official; however, the SF 1034s often did not contain all
the information needed to support a payment, including an invoice date, invoice
number, receipt and acceptance dates, and contract number. In those instances,
the technicians had to use other information from the SF 1034 or on attached
documents as the information to be entered into CAPS. DFAS should develop
guidance on the proper use of the SF 1034.
                                   34
Erroneous and Unsupported Payments
    Our sample identified 39 erroneous payments that were paid in the incorrect
    amount to vendors and other authorized individuals. When projected over the
    entire population 30,584 payments were erroneous. Appendix E gives details of
    the sample projections. We also questioned the appropriateness of an additional
    31 payments based on available information. Sufficient documentation and
    information was not available to support the payments. Appendix F gives
    details on each payment.

    Incorrect Amounts Paid to Vendors. DFAS field sites made 39 vendor
    payments in the incorrect amount resulting in overpayments of about $1 million
    and underpayments of about $24,000. A payment was considered erroneous if
    the vendor was paid the incorrect amount based on the documents supporting the
    payment. The miscalculation of payment due dates and the use of incorrect
    information to make payments led to most of the erroneous payments that
    resulted in overpayments and underpayments. Table F-1 shows, by category,
    the number of erroneous payments and the dollar value of overpayments and
    underpayments.

    Missing or Inconsistent Supporting Documents. Thirty-one payments, valued
    at about $2.4 million, were made without proper supporting documents or the
    supporting documents contained information that was inconsistent with the
    payment. Based on available information, we questioned the appropriateness of
    the DFAS field sites making the 31 payments.

            Missing Supporting Documents. Files supporting 28 payments, valued
    at about $2.4 million, lacked at least one essential document needed to properly
    support the payment. The missing invoices, receiving reports, and obligation
    documents were not part of the payment file and were not otherwise provided to
    us by the payment office. For recurring payments, adequate procedures had not
    been established to ensure that services were actually received and accepted and
    receiving reports were prepared and retained at the receiving activities. Table
    F-2 shows the number of erroneous payments by category and the dollar value
    of the payments that should not have been made until proper documentation was
    obtained. Some of the 28 payments lacked more than one type of supporting
    document.

                   Invoices. Payment offices were unable to provide us with the
    invoices needed to support four sample payments. Technicians made payments
    based on a statement from the vendor, a memorandum from an Army official,
    and travel documents received from a travel office. Supporting documentation
    was not available for one payment valued at $28.24. Payments should be
    supported by a request from the vendor to be paid for the delivery of goods or
    services.

                  Receiving Reports. Fifteen payments were made without
    knowledge that goods and services were actually received and accepted. For
    recurring payments, such as rent and utility payments, payment offices did not
    have receiving reports. While guidance did not require the payment offices to
    have receiving reports in all cases, adequate procedures had not been established
                                       35
to ensure that services were actually received and accepted and receiving reports
were prepared and retained at the receiving activities. Receiving reports were
not available to support three property lease payments, seven utility payments,
and five other payments.

                        Leased Property. Payment offices made three payments,
valued at about $2.3 million, for leased property without receiving reports.
Technicians told us that they would receive notification to not make a payment if
something happened that the property was no longer available. Otherwise, they
automatically paid the lessor. DoD Regulation 7000.14-R, volume 10, states
that payments for continuing services such as rents, janitorial services, or
utilities, which are performed under agency-contractor agreements providing
payments at fixed periodic intervals require a receiving report or certification
that the services were performed. DoD Regulation 7000.14-R, volume 10,
further states that receiving reports for recurring services or maintenance
contracts that require payment of a flat fee for a specific time period do not need
to be physically received by the payment office. However, satisfactory controls
need to be established to ensure that a receiving report was prepared and
retained at the receiving activity and payments were made only for satisfactory
services actually received and accepted. The payment offices had not
established administrative controls to ensure that services were received and
accepted.

                      Utility Payments. Seven utility payments, valued at
about $5,200, were made without proof of acceptance of services. The utility
payments were not subject to the exemption in DoD Regulation 7000.14-R,
volume 10, because they were not for a fixed amount each month. While
payment offices had receiving reports for some utility payments in our sample,
receiving reports were not available for these seven utility payments. Personnel
at the payment offices and the receiving activities told us they were not required
to have receiving reports for utilities. Payments were made based on the
invoices that had been sent to the payment office.

                       Other Missing Receiving Reports. For the five other
payments, payment files did not contain receiving reports. When we requested
the receiving reports, they could not be located. Consequently, the five
payments were made without the knowledge that goods and services were
actually received and accepted.

                Obligating Documents. Payment offices were unable to provide
obligation documents for seven sample payments. For contractual payments,
the paying office should have a signed copy of the contract and all modifications
to the contract. Miscellaneous payments require an obligation document in
order to confirm the obligation to pay on behalf of the Government and to
determine the proper accounting classification to charge. For the seven
payments, either the payment office based the payment on other than an
obligating document received from someone other than the contracting or budget
office or we could not determine what the payment office used as an obligating
document.

              Use of Delivery Orders. DFAS made eight payments for
moving and storage services that were paid without a delivery order. Basic
                                    36
   ordering agreements specify the items or services that can be ordered from the
   vendor and provide an estimate of the number of items or amount of services to
   be purchased. When it is time for an item or service to be ordered, a delivery
   order is issued. The delivery order identifies the exact items or services to be
   received and obligates the funds necessary to purchase them. The eight
   payments for moving and storage services were paid like miscellaneous
   payments using either an SF 1034 or another document as support for the
   payment. The payment office did not have delivery orders or other obligating
   documents to support the payments. It is unacceptable to bypass the contract
   requirements by other documents and miscellaneous payment procedures to
   make payments for which delivery orders should have been issued.

          Inconsistent Supporting Documentation. Available documents
   supporting three other payments, valued at about $1,956, contained inconsistent
   information that should have been resolved before a payment was made. The
   accounting classification cited on one payment voucher did not match the
   contract. Another payment was made even though the contract requirements
   had been exceeded. The third payment was made by DFAS San Antonio to an
   individual other than the one identified on the approved DD Form 1556,
   “Request, Authorization, Agreement, Certification of Training and
   Reimbursement.”

Summary
   5 C.F.R. Part 1315 contains strict requirements for what constitutes properly
   supported payments. An proper invoice, receiving report, and obligating
   document are required to be obtained by the payment office before most
   payments are made. Invoices received from vendors should meet all
   requirements of a proper invoice. Invoices that fail to meet the standards need
   to be returned to the vendor for correction within 7 days. Army activities
   receiving goods and services should promptly submit to the payment office
   properly completed receiving reports that acknowledge receipt and acceptance.
   Receiving reports must contain all required information or be returned for
   correction. Limited situations do not require the receiving report to be at the
   payment office. However, controls must be in place to ensure the service was
   performed in an acceptable manner.

   Army managers must ensure that personnel at receiving activities are trained on
   the importance of recording proper dates on receiving reports to prevent the
   circumvention of the PPA. Contracting office personnel need to ensure that
   contracts clearly provide all the data needed for making a payment. Contracts
   should detail the items or services being purchased so invoices and receiving
   reports can be validated. The Under Secretary of Defense (Comptroller) still
   needs to amend DoD Regulation 7000.14-R, volume 10, to discontinue allowing
   exceptions to requirements for a proper invoice, specify what a receiving report
   must contain to properly support a payment, and standardize the rules for
   making properly supported miscellaneous payments. Technicians and
   certification officials need to look more closely at the information that is entered
   into CAPS and ensure that payments are properly supported. DFAS and the
   Army should review and take appropriate actions to resolve the erroneous and
   other questionable payments identified in the sample.
                                        37
Recommendations, Management Comments, and Audit
  Response
    C.1. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller), in coordination with the Director,
    Commercial Pay Services, and the Assistant Secretary of the Army
    (Acquisition, Technology, and Logistics):

           a. Train personnel at designated billing offices on the requirements
    for properly date-stamping documents supporting vendor payments.

    Army Comments. The Deputy Assistant Secretary of the Army (Financial
    Operations) concurred and stated that he would work with DFAS and the
    Assistant Secretary of the Army (Acquisition, Technology, and Logistics) to
    implement the recommendation. The Assistant Secretary of the Army
    (Acquisition, Technology, and Logistics) did not provide comments on the draft
    of this report. Therefore, we request that the Assistant Secretary of the Army
    (Acquisition, Technology, and Logistics) provide comments on the final report.

    DFAS Comments. The Director, Commercial Pay Services, stated that DFAS
    would provide assistance as requested by the Army.

           b. Train personnel at Army activities on the standards for proper
    receipt and acceptance of goods and services.

    Army Comments. The Deputy Assistant Secretary of the Army (Financial
    Operations) concurred and stated that he would work with DFAS and the
    Assistant Secretary of the Army (Acquisition, Technology, and Logistics) to
    develop guidance for the processing of receiving reports. The Assistant
    Secretary of the Army (Acquisition, Technology, and Logistics) did not provide
    comments on the draft of this report. Therefore, we request that the Assistant
    Secretary of the Army (Acquisition, Technology, and Logistics) provide
    comments on the final report.

    DFAS Comments. The Director, Commercial Pay Services, stated that DFAS
    would provide assistance as requested by the Army.

            c. Cease using Standard Form 1034 as an invoice, receiving report,
    and obligation document and only allow its use to support a properly
    certified payment as authorized by DoD Regulation 7000.14-R, volume 10.

    Army Comments. The Deputy Assistant Secretary of the Army (Financial
    Operations) concurred and stated that he would work with DFAS and the
    Assistant Secretary of the Army (Acquisition, Technology, and Logistics) to
    implement the recommendation. The Assistant Secretary of the Army
    (Acquisition, Technology, and Logistics) did not provide comments on the draft
    of this report. Therefore, we request that the Assistant Secretary of the Army
    (Acquisition, Technology, and Logistics) provide comments on the final report.



                                      38
DFAS Comments. The Director, Commercial Pay Services, nonconcurred and
stated that DoD Regulation 7000.14-R, volume 10, chapter 8, allows the use of
the SF 1034 to make various miscellaneous payments. The Director also stated
that DFAS would encourage the use of the DD Form 250 in lieu of the SF 1034.

Audit Response. The DFAS comments were partially responsive. The
SF 1034 should be used as a payment voucher and not as the invoice, receiving
report, or obligation document. We agree that DoD Regulation 7000.14-R,
volume 10, permits the use of the SF 1034 to make payments. However, the
SF 1034 should be completed properly and signed by an approved certifying
official who has a DD Form 577, “Signature Card,” on file with the field site
entering the data in CAPS. The certifying official must ensure that the SF 1034
can stand alone as a payment voucher and that appropriate information from
supporting documents is used to prepare the SF 1034. The SF 1034s should
contain all the information needed to support a payment, including the invoice
date, invoice number, receipt and acceptance dates, and contract or standard
document number for the obligation. DFAS should work with the Army to
develop guidance that specifies how the SF 1034 should be used in making
vendor payments. We request that DFAS reconsider its position and provide
additional comments to the final report.

C.2. We recommend that the Director, Commercial Pay Services:

       a. Direct field sites to use the invoice date for computing the
payment due date if the date stamp on the invoice does not clearly identify
that the office designated in the contract received the invoice.

DFAS Comments. The Director, Commercial Pay Services, partially
concurred and stated that a policy letter will be issued to clarify guidance on the
use of invoice receipt dates. DFAS field sites will be advised to use the invoice
date for computing the payment due date when the date stamp on the invoice
does not clearly identify receipt by the designated billing office, unless
communication with the designated billing office can substantiate the true date of
receipt on the invoice.

Audit Response. The DFAS comments were responsive. The guidance should
help to ensure that proper invoice receipt dates are used in computing payment
due dates.

       b. Direct field sites to establish a procedure for determining the
reasonableness of receipt and acceptance dates and returning receiving
reports that provide unreasonable dates.

DFAS Comments. The Director, Commercial Pay Services, nonconcurred and
stated that DFAS did not establish criteria for determining the reasonableness of
receipt and acceptance dates. The Director stated that the ordering service or
agency was responsible for determining the reasonableness of receipt and
acceptance dates. DFAS will continue to use the 7-day constructive acceptance
rule in the FAR when appropriate.

Audit Response. The DFAS comments were not responsive. The ordering
activity is responsible for establishing the required receipt dates for goods and
                                    39
services. However, DFAS payment technicians are the only individuals in a
position to compare the dates on the supporting documents and determine the
reasonableness of the receipt and acceptance dates provided by receiving
activities. Questionable dates should be researched to ensure that vendors are
paid in a timely manner and are not deprived of the interest penalties that they
are entitled to under the Prompt Payment Act when payments are made late.
We request that DFAS reconsider its position and provide additional comments
to the final report.

        c. Suspend the current policy of making payments for recurring
services without a receiving report until adequate controls are in place to
verify that payments are not being made until acceptance occurs and that
acceptance documentation is properly prepared and maintained.

DFAS Comments. The Director, Commercial Pay Systems, concurred and
stated that a memorandum will be issued to suspend the practice of making
recurring payments without a receiving report. Compensating controls will be
identified to verify payments are not being made until acceptance occurs and
that acceptance documentation is properly prepared and maintained.

      d. Conduct an audit of contract number DABT60-97-D-0007 to
determine if duplicate or erroneous payments were made.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that DFAS will perform a complete review of the payments on the
contract.

       e. Review and resolve those erroneous payments and the other
questionable payments that are considered significant.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that questionable payments would be resolved.

C.3. We recommend that the Assistant Secretary of the Army (Acquisition,
Technology, and Logistics) direct contracting offices to:

       a. Identify a single payment office for making payments on each
delivery order.

       b. Issue delivery orders for moving and storage services in support
of basic ordering agreements.

       c. Issue contracting documents that contain accurate Data Universal
Numbering System numbers and Contractor Activity Government Entity
codes and that require vendors to submit invoices that meet the
requirements of 5 Code of Federal Regulations Part 1315 directly to
payment offices unless the invoices require certification by installation
personnel.

Army Comments. The Assistant Secretary of the Army (Acquisition,
Technology, and Logistics) did not provide comments on the draft of this report.
Therefore, we request that the Army provide comments on the final report.
                                   40
Appendix A. Audit Process

Scope
    Work Performed. We evaluated the controls associated with the two versions
    of CAPS and the computation of vendor payments at DFAS field sites,
    USPFOs, and several other DoD organizations. During FY 2000, about
    902,000 vendor payments, valued at $13.7 billion, were made using CAPS. A
    random sample of 300 of the 236,940 payments made from May 1 through
    July 31, 2000, was reviewed. We considered the organizational and system
    changes made by DFAS field sites since July 31, 2000.

    General Accounting Office High-Risk Area. GAO identified several high-risk
    areas in the DoD. This report provides coverage of the Defense Financial
    Management and Information Management and Technology high-risk areas.

Methodology
    To assess controls over CAPS(W) and CAPS Clipper, we reviewed system
    access lists, compared the access levels of employees to their job position,
    observed system access by users, and discussed procedures for controlling and
    changing passwords with systems personnel. We also reviewed system manuals
    and discussed the functionality of the two versions of CAPS with systems
    personnel at DFAS Indianapolis and the other field sites.

    From data files obtained from DFAS Indianapolis, we randomly selected
    300 vendor payments made using CAPS from May 1 through July 31, 2000.
    CAPS(W) was used by six field sites assigned to DFAS Indianapolis (Operating
    Forces) and the DFAS field sites located in San Antonio, Texas; and Norfolk,
    Virginia. DFAS Europe, DFAS Rock Island, DFAS St. Louis, the 54 USPFOs,
    and several other DoD organizations used CAPS Clipper. From August 2000
    through July 2001, we reviewed the operations and support for the payments at
    these locations to determine whether payments were properly authorized,
    approved, and supported. Obligation documents, invoices, receiving reports,
    and payment vouchers were reviewed for accuracy and propriety.

    We reviewed vendor payment operations at DFAS Indianapolis, DFAS Europe,
    DFAS Lawton, DFAS Norfolk, DFAS Orlando, DFAS Rock Island, DFAS
    Rome, DFAS San Antonio, and DFAS St Louis. We also reviewed operations
    at USPFO Indiana, Indianapolis, Indiana; USPFO Ohio, Columbus, Ohio; and
    USPFO Oklahoma, Oklahoma City, Oklahoma. We also obtained and analyzed
    data from DFAS Lexington, DFAS Seaside, and 21 other USPFOs. We
    compared payment vouchers to source documents to determine whether
    payments were:

           •   properly supported, in the correct amount, and cited proper
               appropriation data;

                                       41
           •   based on the correct invoice receipt dates and receipt and acceptance
               dates;

           •   properly certified; and

           •   sent to the correct vendor via the required means of delivery.

    We also reviewed guidance for making vendor payments and compared
    guidance issued by DFAS Arlington, Arlington, Virginia, and DFAS
    Indianapolis with guidance in 5 C.F.R. Part 1315, the FAR, DFARS subpart
    232.9, and DoD Regulation 7000.14-R, volumes 5 and 10. We contacted
    selected receiving activities to determine whether they received goods and
    services for which payments had been made. We also contacted several vendors
    to determine the status of invoices and whether payments had been received.

    We assessed improvements in vendor payment operations by assessing changes
    in guidance and the actions taken by DFAS and the Army in response to prior
    reviews of vendor payment operations. We held discussions with key DFAS
    and Army financial managers. At each location we visited, we also determined
    actions taken to resolve older unpaid invoices by judgmentally selecting
    10 invoices from a listing of unpaid invoices. We determined the status of the
    invoices, identified problems that delayed the payment of the invoices, and for
    those invoices that were paid as of the date of our visit, we reviewed the
    documents supporting the payments.

    Use of Computer-Processed Data. Although we relied on computer-processed
    data from the two versions of CAPS, we did not evaluate the adequacy of all the
    system’s general and application controls. We determined that password and
    system controls over CAPS were not adequate and data entered at one location
    could be altered or removed by individuals at other locations. However, we
    established data reliability for the payments we reviewed by comparing data
    output to source documents and through discussions with vendors and receiving
    activities. Our tests disclosed that the data were sufficiently reliable to support
    the audit conclusions and recommendations.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from August 2000 through October 2001 in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38 “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the management controls.

                                         42
Scope of Review of the Management Control Program. We reviewed the
adequacy of management controls over vendor payments made using CAPS.
Specifically, we reviewed management controls over vendor payments at the
DFAS field sites. We also reviewed management’s self-evaluation of those
controls.

Adequacy of Management Controls. A material management control
weakness as defined by DoD Instruction 5010.40 was identified in controls
associated with making vendor payments using CAPS. Management controls
were not adequate to control access to CAPS and to ensure that all vendor
payments were properly supported and made for correct amounts.
Recommendations A., B., and C., if implemented, will improve controls over
vendor payments. A copy of the report will be provided to the senior official in
charge of management controls in DFAS.

Adequacy of Management’s Self-Evaluation. DFAS managers identified
vendor payments as an assessable unit and in our opinion correctly identified the
risk associated with vendor payments as high. DFAS Indianapolis did not
identify controls over the processing of CAPS payments as a management
control weakness in its FYs 2000 and 2001 Annual Statements of Assurance.
However, DFAS Columbus and DFAS Kansas City as well as several of the
DFAS field sites had reported significant control issues with CAPS. As
highlighted in this report, CAPS has significant management control issues that
should be reported as a material weakness.




                                   43
Appendix B. Prior Coverage
    During the last 5 years, GAO and the Inspector General, DoD, have issued
    several audit reports discussing issues related to vendor payments.

General Accounting Office
    GAO Report No. GAO-01-309 (OSD Case No. 3029), “Excess Payments and
    Underpayments Continue to be a Problem at DoD,” February 22, 2001

    GAO Report No. GAO/AIMD-00-10 (OSD Case No. 1919), “Increased
    Attention Needed to Prevent Billions in Improper Payments,” October 29, 1999

    GAO Report No. GAO/AIMD-98-274 (OSD Case No. 1687), “Improvements
    Needed in Air Force Vendor Payment Systems and Controls,” September 28,
    1998

    GAO Report No. GAO/OSI-98-15 (OSD Case No. 1687-A), “Fraud by an Air
    Force Contracting Official,” September 23, 1998

Inspector General, DoD
    Inspector General, DoD, Report No. D-2002-008, “Controls Over the
    Computerized Accounts Payable System at Defense Finance and Accounting
    Service Kansas City,” October 19, 2001

    Inspector General, DoD, Report No. D-2001-101, “Controls Over Electronic
    Document Management,” April 16, 2001

    Inspector General, DoD, Report No. D-2001-075, “Standard Procurement
    System Use and User Satisfaction,” March 13, 2001

    Inspector General, DoD, Report No. D-2001-029, “General Controls Over the
    Electronic Document Access System,” December 27, 2000

    Inspector General, DoD, Report No. D-2000-139, “Controls Over the
    Integrated Accounts Payable System,” June 5, 2000




                                     44
Appendix C. Standard Office Structure for
            Making Vendor Payments
   Centralized Mailroom. The centralized mailroom should be located and
   controlled outside of the vendor payment operation. All incoming documents,
   including mail delivered by the U.S. Postal Service, hand delivered items,
   express mail, and facsimile messages that support vendor payments should be
   received and date-stamped in the centralized mailroom. The mailroom should
   be a secure location and all supporting documents should be maintained under
   its control until transferred to the document management section for processing.
   Sites using the RightFAX system can receive supporting documents directly in
   the document management section since the RightFAX system provides a means
   to control the date stamp placed on the document.

   Vendor Payment Office. In order to standardize the vendor payment office
   structure, each vendor payment office should contain the following four
   sections.

           Document Management Section. The document management section
   should be a secure location within the vendor payment office. The section
   should be staffed with experienced vendor pay technicians that screen all
   incoming vendor payment supporting documents, and either enter them into
   CAPS or log and return them to originators with an explanation as to why the
   documents are not proper. This section should also track and control payment
   folders and each supporting document until the payment is made and the
   documents are attached to the disbursement voucher.

           Payment Computation Section. The payment computation section
   should consist of vendor pay technicians responsible for ensuring that all
   payment documents for contractual and miscellaneous payments are properly
   entered into CAPS and properly support the payments. The technician should
   also determine whether the EFT information contained in CAPS is current by
   comparing the data with the CEFT database. If errors are detected, the
   information should be researched and returned to the input or vendor
   maintenance technician for correction. Once all documents are obtained and
   payment information reviewed, the technician should compute the payment in
   CAPS, ensure that the payment is properly prevalidated, and produce a
   disbursement voucher.

           Certification Section. The certification section should be comprised of
   experienced vendor pay technicians who have been formally designated as
   certifying officials. This section is responsible for ensuring that all payments
   are legal, correctly computed for payment, are supported by proper supporting
   documents, and are sent to the correct EFT account or remittance address.
   Certification officials should also sign each voucher using either a manual or
   electronic signature certifying that the payments are legal, proper, and correct.
   Certification officials should be responsible for performing the daily download
   of disbursing information from ODS to CAPS and the upload of


                                       45
payment information from CAPS to ODS. The disbursing officer should be
provided with a certification statement that the payments being submitted for
disbursement have all been properly certified.

        Reports and Reconciliation Section. The reports and reconciliation
section should be staffed with experienced vendor pay technicians or accountants
responsible for conducting research and working management reports. This
section should also work with activities to obtain missing documentation needed
to properly support payments that appear on overage listings. A limited number
of individuals within this section should be responsible for entering and updating
vendors’ EFT and check remittance information in CAPS.

The figure shows a proposed standard office structure that would provide proper
segregation of duties within a field site processing vendor payments.




        Administration                                                   Vendor Pay Office
        or Other Office


           Mailroom            Document               Compute Teams                  Reports and              Certification
                              Management                                            Reconciliation


           Receive All         Screen                    Review Supporting             Update/Maintain          Review Supporting
           Vendor Pay Mail     Incoming Documents        Documents and CAPS Input      Vendor Information       Documents; CAPS Input
           Date Stamp          for Compliance            Compare to CCR/CEFT           in CAPS                  and CCR/CEFT
           with Actual Date    Log and Return            Compute Payments              Work System              Ensure Payments are
           of Receipt          to Originator for         Return to Input               Reports                  Legal, Proper and Correct
                               Correction                Technician                    Conduct Research         Download Disbursing
                               Input into CAPS           or Vendor Maintenance         Work with Customers      Information from ODS
                               Maintain and Control      Team for Correction           to Obtain Missing        Upload Payments
                               Payment Folders           Prevalidate                   Supporting Documents     to ODS for Disbursement
                                                         Forward to Certifier
                                                         Research
                                                         Discrepancies




                                                       46
Appendix D. Guidance on Supporting
            Documentation
   The principal guidance used for making payments to vendors is the PPA, as
   implemented in 5 C.F.R. Part 1315, “Prompt Payment; Final Rule,”
   September 29, 1999. The requirements for supporting documentation are
   further defined in FAR Subpart 32.9, “Prompt Payment”; DoD FAR
   Supplement Subpart 232.9, “Prompt Payment”; and DoD Regulation
   7000.14-R, volume 10, “Contract Payment Policy and Procedures,” November
   1999.

   On August 28, 2000, a proposed rule was published for comment in the Federal
   Register, “Federal Acquisition Regulation; Prompt Payment and the Recovery
   of Overpayment; Proposed Rule.” The proposed change revises the FAR to
   incorporate 5 C.F.R. Part 1315 and implements a GAO recommendation to
   require contractors who have been overpaid to notify contracting officers of
   overpayments. The FAR council must issue a Federal Acquisition Circular to
   change the FAR. DoD FAR Supplement Subpart 232.9, “Prompt Payment,”
   also has not been changed.

   In Inspector General, DoD, Report No. D-2000-139, “Controls Over the
   Integrated Accounts Payable System,” June 5, 2000, we recommended that
   DoD Regulation 7000.14-R, volume 10, be amended to fully comply with the
   requirements in 5 C.F.R. Part 1315 and include standardized rules for making
   properly supported miscellaneous payments. The Under Secretary of Defense
   (Comptroller) stated that DoD Regulation 7000.14-R, volume 10, would not be
   changed until 5 C.F.R. Part 1315 is incorporated in the FAR.

   DFAS Indianapolis issued further guidance in DFAS Indianapolis
   Regulation 37-1, Chapter 9, “Vendor Pay,” dated January 2000. With the
   exception of an invoice number and the name of the vendor on receiving
   reports, the DFAS Indianapolis guidance echoed the requirements in 5 C.F.R.
   Part 1315 for what information must be found on the supporting documentation.

   Invoices. 5 C.F.R. Part 1315 requires that the vendor send an invoice to the
   designated billing office specified in the contract when goods are delivered or
   services performed. The designated billing office is required to immediately
   date-stamp the invoice and perform a review to determine whether the invoice is
   proper for payment. If the invoice is determined to be proper, it should be sent
   to the payment office for entry into CAPS and payment as required by the PPA.
   If determined to be improper, the invoice should be returned to the vendor
   within 7 days of receipt (for most invoices), identifying all defects that
   prevented payment and requesting that the vendor send a clearly marked
   corrected invoice to the designated billing office for payment.




                                      47
       Specifically, 5 C.F.R. Part 1315.9, “Required Documentation,” states that:
              (b) The following correct information constitutes a proper invoice and
              is required as payment documentation:

              (1) Name of vendor;

              (2) Invoice date;

              (3) Government contract number, or other authorization for delivery
                  of goods or services;

              (4) Vendor invoice number, account number, and/or any other
                  identifying number agreed to by contract;

              (5) Description (including for example, contract line/subline
                  number), price, and quantity of goods and services rendered;

              (6) Shipping and payment terms (unless mutually agreed that this
                  information is only required in the contract);

              (7) Taxpayer Identification Number (TIN), unless agency procedures
                  provide otherwise;

              (8) Banking information, unless agency procedures provide
                  otherwise, or except in situations where the EFT requirement is
                  waived under 31 CFR 208.4;

              (9) Contact name (where practicable), title and telephone number;

              (10) Other substantiating documentation or information required by
                   the contract.

In addition to these requirements, the proposed change to the FAR specifies EFT
requirements and states that contractors should assign an identification number to each
invoice.

DoD Regulation 7000.14-R, volume 10, allows exceptions to requirements for a valid
invoice. DoD Regulation 7000.14-R, volume 10, states that it is not necessary for an
invoice to be free of defects in order for it to be proper and create a valid demand on
the Government; the approving activity determines whether a valid demand exists.
These exceptions are contrary to the requirements in 5 C.F.R. Part 1315. In assessing
whether an invoice was proper, we used the requirements in 5 C.F.R. Part 1315.
Specifically, invoices were considered improper if they did not contain a contract or
obligating document number, or did not adequately describe what was purchased or the
description was inconsistent with the contract. The FAR requires that an invoice that is
missing required data be returned to the vendor, which can make the needed corrections
and resubmit a clearly marked corrected invoice. Consequently, invoices were also
considered improper if they were altered.


                                               48
Receiving Reports. The PPA requires that receipt and acceptance be promptly
recorded at the time of delivery of goods or completion of services. Receiving
activities were required to submit a receiving report immediately upon each delivery of
goods or completion of services unless the contract stated that partial payment was not
authorized. Receiving activities were to forward a proper receiving report to the
payment office by the fifth working day after acceptance. 5 C.F.R. Part 1315.9 states
that:
              (c) The following information from receiving reports, delivery tickets,
              and evaluated receipts is required as payment documentation:

                  (1) Name of vendor;

                  (2) Contract or other authorization number;

                  (3) Description of goods or services;

                  (4) Quantities received, if applicable;

                  (5) Date(s) goods were delivered or services were provided;

                  (6) Date(s) goods or services were accepted;

                  (7) Signature (or electronic alternative when supported by
                      appropriate internal controls), printed name, telephone
                      number, mailing address of the receiving official, and any
                      additional information required by the agency.

The proposed change to the FAR basically restates existing requirements
for receiving reports. The proposed change states that:
              (c) Authorization to pay.     ...The receiving report or other
              Government documentation authorizing payment must, as a minimum,
              include the following:

              (1) Contract number or other authorization for supplies delivered or
                  services performed.

              (2) Description of supplies delivered or services performed.

              (3) Quantities of supplies received and accepted or services
                  performed, if applicable.

              (4) Date supplies delivered or services performed.




                                                49
       (5) Date that the designated Government Official –

               (i)    Accepted the supplies or services; or

               (ii)   Approved the progress payment request, if the request
                      is being made under the clause at 52.232-5, Payments
                      Under Fixed-Price Construction Contracts, or the clause
                      at 52.232-10, Payment Under Fixed-Price Architect-
                      Engineering Contracts.

       (6) Signature, printed name, title, mailing address, and telephone
           number of the designated Government official responsible for
           acceptance or approval functions.

DoD Regulation 7000.14-R, volume 10, does not specify what a receiving
report must contain to properly support a payment.

Contracts. To properly support a payment, the paying office must have a
signed contract or other authorization document against which payment is being
made. 5 C.F.R. Part 1315.9 states that:
       The following information from the contract is required as payment
       documentation:

           (1) Payment due date(s) as defined in Sec. 1315.4(g);

           (2) A notation in the contract that partial payments are
               prohibited, if applicable;

           (3) For construction contracts, specific payment due dates for
               approved progress payments or milestone payments for
               completed phases, increments, or segments of the project;

           (4) If applicable, a statement that the special payment provisions
               of the Packers and Stockyard Act of 1921 (7 U.S.C. 182(3)),
               or the Perishable Agricultural Commodities Act of 1930
               (7 U.S.C. 499a(4)), or Fish and Seafood Promotion Act of
               1986 (16 U.S.C. 4003(3)) shall apply;

           (5) Where considered appropriate by the agency head, the
               specified acceptance period following delivery to inspect
               and/or test goods furnished or to evaluate services performed
               is stated;

           (6) Name (where practicable), title, telephone number, and
               complete mailing address of officials of the Government’s
               designated agency office, and of the vendor receiving the
               payments;




                                         50
(7) Reference to requirements under the Prompt Payment Act,
    including the payment of interest penalties on late invoice
    payments (including progress payments under construction
    contracts);

(8) Reference to requirements under the Debt Collection
    Improvement Act (Pub. L. 104-134, 110 Stat. 1321)
    including the requirement that payments must be made
    electronically except in situations where the EFT requirement
    is waived under 31 CFR 208.4. Where electronic payment is
    required, the contract will stipulate that banking information
    must be submitted no later than the first request for payment.




                             51
Appendix E. Statistical Sampling Methodology

Sampling Plan
    Sampling Purpose. The purpose of the statistical sampling plan was to estimate
    the number of vendor payments that did not have proper documentation by type
    of payment and type of document. The statistical sampling plan was also used
    to estimate the number of erroneous payments, once it was determined that a
    payment was not properly supported. The payments were reviewed to
    determine whether documentation was adequate and complied with the PPA.

    Universe Represented. DFAS Indianapolis provided a database of vendor
    payments made using CAPS from May 1 through July 31, 2000. The file
    contained records on 236,940 vendor payments. The total dollar value of the
    vendor payments in the population was $4.1 billion.

    Sampling Design. The sampling design used to determine whether or not the
    vendor payments had proper documentation was a stratified attribute design.
    The population was divided into three strata: payments valued at less than
    $2,500, payments valued at least $2,500 but less than $1 million, and payments
    valued at $1 million or more. A total of 300 payments (148 contractual and
    152 miscellaneous) were randomly selected: 160 from the first stratum,
    80 from the second stratum, and 60 from the third stratum.

Sampling Results
    Table E-1 identifies the statistical estimates of vendor payments that were not
    properly supported by type of payment.

                  Table E-1. Payments Not Properly Supported
                         (99-Percent Confidence Level)

     Type of           Lower Bound           Point Estimate       Upper Bound
     Payment

    Contractual           61,937                 80,620               99,302

   Miscellaneous          82,018                100,787              119,556


    We are 99-percent confident that from 61,937 to 99,302 contractual payments
    were not properly supported. Also, we are 99-percent confident that from
    82,018 to 119,556 miscellaneous payments were not properly supported. Table
    E-2 identifies the statistical estimates of contractual payments that were not
    properly supported by document type.


                                        52
               Table E-2. Contractual Payments Not Properly
                       Supported by Document Type
                       (99-Percent Confidence Level)

   Type of
  Document           Lower Bound           Point Estimate       Upper Bound

   Invoices             18,868                32,437               46,006

  Receiving             55,806                74,000               92,194
   Reports

  Contracts             3,817                 12,532               21,248

 Incorrect              23,669                37,949               52,230
 Receiving
Report Dates


We are 99-percent confident that from 18,868 to 46,006 vendor payments were
not properly supported due to improper invoices. We are 99-percent confident
that from 55,806 to 92,194 vendor payments were not properly supported due to
improper receiving reports. We are 99-percent confident that from 3,817 to
21,248 vendor payments were not properly supported due to improper
obligation documents. We are also 99-percent confident that from 23,669 to
52,230 payments were made using receiving reports containing inaccurate dates.

Table E-3 identifies the statistical estimates of miscellaneous payments that were
not properly supported by document type.

              Table E-3. Miscellaneous Payments Not Properly
                       Supported by Document Type
                       (99-Percent Confidence Level)

  Type of
 Document          Lower Bound           Point Estimate       Upper Bound

  Invoices             7,253                 17,507               27,761

 Receiving            82,018                100,787              119,556
  Reports

 Obligation            7,260                 17,022               26,783
 Documents


We are 99-percent confident that from 7,253 to 27,761 vendor payments were
not properly supported due to improper invoices. We are 99-percent confident
that from 82,018 to 119,556 vendor payments were not properly supported due

                                    53
to improper receiving reports. We are 99-percent confident that from 7,260 to
26,783 vendor payments were not properly supported due to improper
obligation documents.

Table E-4 identifies the statistical estimates of vendor payments that were
erroneous by type of payment.

                      Table E-4. Erroneous Payments
                       (99-Percent Confidence Level)

   Type of
   Payment          Lower Bound            Point Estimate       Upper Bound

 Contractual            5,775                  15,549              25,323

Miscellaneous           5,341                  15,035              24,730

     All               17,451                  30,584              43,717


We are 99-percent confident that from 17,451 to 43,717 vendor payments were
made erroneously to vendors. We are 99-percent confident that from 5,775 to
25,323 contract payments were made erroneously. We are 99-percent confident
that from 5,341 to 24,730 miscellaneous payments were made erroneously.

Each of the individual estimates is projected at the 99-percent confidence level.
However, taking a conservative approach, reviewing each of the 11 estimates as
an independent projection, we estimate the overall confidence level for all 11
estimates simultaneously is approximately 90-percent.




                                    54
Appendix F. Erroneous and Unsupported
            Payments
    From our sample of payments made from May 1 through July 31, 2000, we
    identified 39 erroneous payments. We considered a payment to be erroneous if
    the vendor was paid the incorrect amount. We identified $1,000,025.53 in
    overpayments and $23,959.98, in underpayments. Thirty-one additional
    payments, valued at about $2.4 million, were made without proper supporting
    documents or the supporting documents contained information that was
    inconsistent with the payment. Based on available information, we question the
    appropriateness of these 31 payments.

Incorrect Amounts Paid to Vendors
    DFAS field sites made 39 vendor payments in the incorrect amount resulting in
    overpayments of about $1 million and underpayments of about $24,000. A
    payment was considered erroneous if the vendor was paid the incorrect amount
    based on the documents supporting the payment. Table F-1 shows, by category,
    the number of erroneous payments and dollar value of overpayments and
    underpayments.

                       Table F-1. Incorrect Amounts Paid to Vendors

                         Number of
        Category         Erroneous         Amount Overpaid       Amount Underpaid
                         Payments

     Miscalculation          16                $      235.94            $     520.76
     of Payment
     Due Date

     Incorrect               16                    967,869.33               18,678.29
     Information
     Entered in
     CAPS

     Vendor Paid             5                      31,920.26                      0
     More Than
     Amount Due

     Discounts               2                               0               4,760.93
     Improperly
     Taken

         Total               39               $1,000,025.53             $23,959.98

                                      55
           Miscalculation of Payment Due Date. Technicians miscalculated the payment
           due dates on 16 payments. As a result, DFAS overpaid eight invoices by
           $235.94 and underpaid eight invoices by $520.76. In each of the 16 cases, the
           payments were not paid on the expected payment date and the interest payment
           was not recalculated. As a result, the vendors were paid the incorrect amount
           of interest. The following list identifies information on each of the 16
           payments, including the amount of the overpayment or underpayment which
           occurred and whether subsequent action was taken to recover the overpayment
           or pay the vendor the underpaid amount.

           Payment      Voucher                Voucher           Overpayment               Remedial
           Office       Number                 Date              (Underpayment)1           Action Taken
           Defense Agency
           Financial
           Services     304315                 6/30/00            $         5.48                  No
           Europe       243978                 6/16/00                      1.13                  No
           Lawton       252830                 6/1/00                      (3.66)                 No
           Lexington    214614                 5/16/00                      2.09                  No
           Lexington    201071                 7/27/00                    203.04                  No
           Orlando      204886                 5/2/00                      10.23                  No
           Orlando      209467                 5/9/00                    (307.99)                 No
           Orlando      237629                 6/15/00                     12.42                  No
           Orlando      246045                 6/27/00                      1.26                  No
           Rock Island 270391                  5/30/00                   (195.69)                 No
           San Antonio 251487                  5/31/00                      0.29                  No
           San Antonio 258013                  6/9/00                      (0.40)                 No
           San Antonio 266817                  6/22/00                     (1.02)                 No
           San Antonio 263436                  7/18/00                     (6.09)                 No
           San Antonio 267187                  7/24/00                     (1.45)                 No
           St. Louis    270979                 5/30/00                     (4.46)                 Yes

           Incorrect Information Entered Into CAPS. Technicians incorrectly entered
           the dates used to calculate payment due dates and the amount due vendors. In
           addition, payment remittance information was not changed promptly. Incorrect
           information in CAPS caused 5 overpayments totaling $967,869.33 and 11
           underpayments totaling $18,678.29. The following list provides pertinent
           information on the 16 erroneous payments.




1
    Overpayments and underpayments are estimates based on straight-line interest at the rate in effect at the
    time of payment.

                                                      56
            Payment            Voucher     Voucher        Overpayment           Remedial
            Office             Number       Date          (Underpayment)        Action Taken
            DNO                3068962     7/6/00            $         (7.62)        No
            Europe             2377813     5/10/00            937,918.00             Yes
            Europe             2861884     6/14/00              (1,252.00)           No
            Europe             2732965     6/30/00                  116.88           Yes
            Lawton             2652692     7/19/00                     3.30          No
            Rock Island        2753094     5/10/00                     1.54          No
            Rock Island        2784645     5/17/00              29,829.61            Yes
            Rock Island        2824722     5/26/00              (1,836.25)           No
            Rock Island        2727972     6/6/00                     (7.51)         No
            Rock Island        2701972     6/29/00                    (5.78)         No
            Rock Island        2758234     7/12/00                    (2.68)         No
            Rock Island        2758384     7/12/00            (13,275.36)            No
            Rome               2200973     5/23/00             (1,639.86)            Yes
            San Antonio        2693372     5/26/00                   (0.84)          No
            St. Louis          2794802     6/21/00                (648.68)           Yes
            USPFO
            California         2571682     7/7/00                   (1.71)          No

                    Entering Information in CAPS. Technicians did not correctly enter
            information that affected payment amounts and the vendor entitled to payment.
            The dates used to calculate the payment due dates were also not entered
            correctly. Technicians sometimes entered the wrong date or used an incorrect
            date from the supporting documentation.

                     •    A technician at DFAS Europe entered the total amount invoiced for
                          the month instead of the amount due to vendor shown on the invoice.
                          The vendor had previously requested 95 percent of the anticipated
                          monthly charge and only requested the difference between the actual
                          monthly charges and the amount previously invoiced. As a result,
                          the vendor was overpaid by about $937,918. The overpayment was
                          recouped 2 months later.

                     •    A payment made by DFAS Rock Island for $29,829.61 was sent to
                          the incorrect vendor. A modification to the contract changed the
                          vendor name and address. DFAS Rock Island had the modification
                          and corrected part of the information but failed to change the EFT
                          and remittance information in CAPS. The vendor that mistakenly
                          received the payment returned the money to DFAS.

                     •    DFAS Rock Island received invoice number 39128 as a certified
                          invoice from the Watervilet Arsenal, Watervilet, New York. Since
                          the invoice was not date-stamped, DFAS Rock Island calculated the
                          payment due date from the invoice date of March 31, 2000, rather
                          than the constructive acceptance date of April 17, 2000. The

2
    Incorrect invoice receipt date.
3
    Incorrect dollar amount.
4
    Incorrect acceptance date.
5
    Incorrect vendor name and address.



                                                 57
               payment was made on May 10, 2000, instead of on May 17, 2000.
               An interest payment of $1.54 was inappropriately paid to the vendor.

    In all cases, supporting documentation identified that the technician had made an
    error in computing the payment. Certifying officials should have detected these
    errors and returned the payments for correction.

    Vendor Paid More Than Amount Due. The following five payments were
    erroneous because the payment exceeded the amount that the vendor was
    entitled to receive.

    Payment       Voucher        Voucher        Overpayment           Remedial
    Office        Number          Date          (Underpayment)        Action Taken
    Lawton        259151         7/11/00           $ 13.67                 No
    Lexington     237165         6/15/00                25.34              No
    Lexington     207480         7/7/00                179.54              No
    San Antonio   263071         5/18/00               857.22              Yes
    St. Louis     274066         5/5/00             30,844.49              No

    Discounts Improperly Taken. The following two erroneous payments were
    caused by technicians taking discounts that DoD was not entitled to based on the
    payment due date.

    Payment       Voucher        Voucher        Overpayment           Remedial
    Office        Number          Date          (Underpayment)        Action Taken
    Europe        249379         7/21/00           $      (1.02)           No
    Lawton        253135         7/31/00             (4,759.91)            No

Missing or Inconsistent Supporting Documents
    We questioned the appropriateness of DFAS field sites making 31 payments,
    valued at about $2.4 million, based on available information. The payments
    were made without proper supporting documents or the supporting documents
    contained information that was inconsistent with the payment. Table F-2 shows
    the number of payments by category and the dollar value of the payments that
    should not have been made until proper documentation was obtained.




                                       58
                  Table F-2. Missing Supporting Documents

                             Number of Erroneous      Total Dollar Value of
         Category                Payments                   Payments

No Invoice                            2                            3,755.58

No Invoice and Receiving              1                            5,614.50
Report

No Invoice, Receiving                 1                               28.24
Report and Obligation
Document

No Receiving Report                   10                       2,337,741.08

No Receiving Report and               3                            1,998.84
Obligation Document

No Obligation Document                3                              470.04

Individual Delivery Orders            8                            7,110.72
Not Issued

Supporting Documentation              1                              248.00
Did Not Match Payment

Payment Inconsistent With             2                             1707.84
Contract

          Total                       31                      $2,358,674.84


No Receiving Report. The following 10 payments were made without a
receiving report.

Payment Office       Voucher Number        Payment Date        Amount
Department 97        318547                5/26/00      $1,165,584.29
Department 97        301104                7/28/00       1,165,584.29
DNO                  315333                5/22/00             137.22
DNO                  317540                5/25/00           1,934.90
DNO                  304648                6/2/00              112.36
DNO                  315404                7/21/00           1,011.16
Europe               241638                6/2/00            1,396.30
Orlando              208431                7/10/00             975.00
Rome                 226057                6/1/00               87.56
San Antonio          251363                7/27/00             918.00




                                 59
Individual Delivery Orders Not Issued. Delivery orders were not issued to
authorize the following eight payments.

Payment Office       Voucher Number        Payment Date           Amount
Lawton               254365                5/3/00              $2,419.34
Lawton               263764                7/17/00               1,548.40
Rome                 211222                5/11/00                  88.15
Rome                 221938                5/25/00              1,275.67
Rome                 239019                6/19/00                203.36
Rome                 242917                6/22/00                995.45
Rome                 203194                6/30/00                549.10
Rome                 216037                7/19/00                  31.25

No Receiving Report and Obligation Document. The following three
payments were made without a receiving report and obligation document.

Payment Office       Voucher Number        Payment Date          Amount
Rome                 206779                5/4/00              $1,891.00
San Antonio          260333                5/11/00                 85.00
Army Recruiting
Command              305061                5/3/00                  22.84

No Obligation Document. The following three payments were made without
an obligation document.

Payment Office       Voucher Number        Payment Date          Amount
Lawton               268685                7/24/00               $ 44.25
Army Recruiting
Command              303740                5/2/00                  372.62
Army Recruiting
Command              309166                5/10/00                  53.17

No Invoice. The following two payments were made without an invoice.

Payment Office       Voucher Number        Payment Date          Amount
Europe               284835                6/5/00              $2,513.20
Rock Island          279180                5/18/00              1,242.38

No Invoice and Receiving Report. The following payment was made without
an invoice and receiving report.

Payment Office       Voucher Number        Payment Date          Amount
Rome                 205993                5/4/00              $5,614.50

Supporting Documentation Did Not Match Payment. The supporting
documents for the following payment did not reflect consistent information.

Payment Office       Voucher Number        Payment Date          Amount
San Antonio          263760                5/18/00               $248.00




                                   60
Payment Inconsistent With the Contract. The following two payments were
questionable because either the invoice or receiving report was not consistent
with the contract.

Payment Office       Voucher Number        Payment Date          Amount
DNO                  306438                5/4/00              $ 207.84
Rock Island          273339                6/6/00               1,500.00


No Supporting Documentation. The following payment was made without any
supporting documentation.

Payment Office       Voucher Number        Payment Date          Amount
Orlando              214123                7/18/00                $28.24




                                   61
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director for Acquisition Initiatives
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Auditor General, Department of the Army
Chief, National Guard Bureau

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Commercial Pay Services

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations




                                          62
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         63
Under Secretary of Defense (Comptroller)
Comments




                   65
Department of the Army Comments




                     66
Defense Finance and Accounting Service
Comments




                   67
68
69
70
71
72
73
74
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Carmelo G. Ventimiglia
George C. DeBlois
Michelle D. Pippin
Rebecca L. Niemeier
Lusk F. Penn
Lisa Rose-Pressley
